<html>
<title> - REVIEW OF THE POLICIES AND PROCEDURES REGARDING THE NOTIFICATION OF NEXT-OF-KIN OF WOUNDED AND DECEASED SERVICE MEMBERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         [H.A.S.C. No. 110-66]

  REVIEW OF THE POLICIES AND PROCEDURES REGARDING THE NOTIFICATION OF 
          NEXT-OF-KIN OF WOUNDED AND DECEASED SERVICE MEMBERS

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 27, 2007


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                     U.S. GOVERNMENT PRINTING OFFICE

39-405                     WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001








                    MILITARY PERSONNEL SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
MARTY MEEHAN, Massachusetts          JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
SUSAN A. DAVIS, California           THELMA DRAKE, Virginia
NANCY BOYDA, Kansas                  WALTER B. JONES, North Carolina
PATRICK J. MURPHY, Pennsylvania      JOE WILSON, South Carolina
CAROL SHEA-PORTER, New Hampshire
               Kevin Coughlin, Professional Staff Member
                 John Chapla, Professional Staff Member
                     Joseph Hicken, Staff Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, June 27, 2007, Review of the Policies and Procedures 
  Regarding the Notification of Next-of-Kin of Wounded and 
  Deceased Service Members.......................................     1

Appendix:

Wednesday, June 27, 2007.........................................    39
                              ----------                              

                        WEDNESDAY, JUNE 27, 2007
  REVIEW OF THE POLICIES AND PROCEDURES REGARDING THE NOTIFICATION OF 
          NEXT-OF-KIN OF WOUNDED AND DECEASED SERVICE MEMBERS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Military Personnel Subcommittee................................     1

                               WITNESSES

Downs, Brig. Gen. Michael P., (Ret.), Director, Personal and 
  Family Readiness Division, Manpower and Reserve Affairs 
  Department, Headquarters, U.S. Marine Corps....................     9
Jones, Brig. Gen. Reuben D., Adjutant General of the Army, U.S. 
  Army...........................................................     6
McLaughlin, Patrick M., Assistant Deputy Chief of Naval 
  Operations, and Chief Operating Officer (Manpower, Personnel, 
  Training & Education)..........................................     8
Przybyslawski, Maj. Gen. Anthony F., Commander, Air Force 
  Personnel Center, U.S. Air Force...............................     4

                                APPENDIX

Prepared Statements:

    Downs, Michael P.............................................    72
    Jones, Brig. Gen. Reuben D...................................    51
    McHugh, Hon. John M..........................................    48
    McLaughlin, Patrick M........................................    58
    Przybyslawski, Maj. Gen. Anthony F...........................    65
    Snyder, Hon. Vic.............................................    43

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mrs. Boyda...................................................    85
    Mr. Hinchey..................................................    90
    Mr. McHugh...................................................    83

    Mr. Murphy...................................................    85
    Ms. Sanchez..................................................    85
    Dr. Snyder...................................................    83








 
 REVIEW OF THE POLICIES AND PROCEDURES REGARDING THE NOTIFICATION OF 
          NEXT-OF-KIN OF WOUNDED AND DECEASED SERVICE MEMBERS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                          Washington, DC, Wednesday, June 27, 2007.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2118, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
      ARKANSAS, CHAIRMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Dr. Snyder. The committee will come to order.
    Have a seat, gentlemen.
    I am pleased to hold this hearing today to discuss the 
policies and procedures regarding the notification of next of 
kin of our wounded and deceased service members.
    There have been a number of cases over the past few years 
that have raised some major concerns over the notification 
process, its accuracy and even, at least at times, its honesty.
    Some of these cases have involved inaccurate or incorrect 
information being reported or given to family members. Other 
cases have involved family members not given information and 
not being informed as to the circumstances of their loved one's 
death or injury, or not being provided additional information 
when it was discovered.
    Family members have also complained that when they wanted 
additional information, sometimes they had to go through 
cumbersome processes, such as the Freedom of Information Act, 
to get it.
    No matter what the reason, it is important that our service 
members and their families get the most accurate and up-to-date 
information in a timely fashion. And I know all of us agree 
with that goal.
    The intent for today's hearing is to discuss the 
notification procedures of each service, what problems there 
have been regarding this process, what changes any of the 
services have made with regard to the notification procedures, 
and where we currently stand with regard to this process, to 
ensure accurate and timely notification to service members and 
their families.
    Our service members continue to make huge sacrifices for 
our country, and we owe them and their families the most 
accurate and up-to-date information, especially when they make 
the ultimate sacrifice to this country.
    I know that all of the witnesses that are testifying before 
our committee today are strong supporters of our troops, and I 
welcome their input into this process.
    And before I introduce this fine panel, let me give 
Congressman John McHugh an opportunity for any opening remarks 
he might want to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 43.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you, Mr. Chairman.
    Let me begin by saying, as a housekeeping note from 
yesterday, I had made the miscalculation of assuming yesterday 
would be your last hearing of this subcommittee as its 
chairman. I forgot about today, not that it is an unimportant 
hearing, but 24 hours in advance apparently was beyond my 
capabilities yesterday. [Laughter.]
    Dr. Snyder. But I think you should continue to say really 
effusive things. [Laughter.]
    Mr. McHugh. Well, that was going to be my point, Mr. 
Chairman. Rather than repeat all the wonderful things that I 
attempted to say about you, I would just refer everybody to 
yesterday's transcript. [Laughter.]
    But let me just say that we wish you all the best, and, of 
course, look forward to the designated Chair coming on, the 
gentlelady from California, Ms. Davis. But thank you for all 
you have done.
    And let me add my words of welcome to our distinguished 
panelists.
    As you noted, Mr. Chairman, this is a very important 
hearing. And obviously, we are all in agreement that operating 
an effective, timely, and accurate wartime casualty 
notification system that is sensitive to the needs and desires 
of the survivors and, of course, respectful of the sacrifice of 
service members in general is an immensely difficult challenge. 
And we shouldn't really underestimate it.
    It is a challenge that this Nation and each of the military 
services has wrestled with in each of the wars that we have 
fought over many, many years.
    I would note that, following Desert Storm, House 
initiatives in the 1993 Defense Authorization Act gave 
survivors access to the military investigative reports on the 
service members' deaths, and it directed the secretary of 
defense to conduct a review of combat casualty notification 
procedures, including those involving friendly fire incidents.
    More recently, again, both the House and Senate adopted a 
range of measures, as you know, Mr. Chairman, to improve the 
casualty notification and survivor assistance programs that 
became both parts of the 2006 and 2007 Defense Authorization 
Acts.
    Today in Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) challenges remain, as the chairman 
noted. And we are all aware of the significant shortcomings 
that the Department of Defense (DOD) inspector general (IG) has 
found in the casualty notification process in friendly fire 
investigations related to the death of Army Corporal Pat 
Tillman, in particular.
    And we await the findings and recommendations of General 
Wallace, the commander of the Army's Training and Doctrine 
Command, regarding who should be held accountable for the 
mistakes made in that tragic case.
    And while I am fairly certain we will in some form discuss 
the Tillman case today, as well as others where the 
notification investigation process has not gone well, we are 
also very much interested in how each of the services has 
changed notification investigation requirements and procedures 
based on the lessons learned from OIF and OEF experiences.
    With that, Mr. Chairman, I would ask that the rest of my 
statement be entered in its entirety into the record----
    Dr. Snyder. Without objection.
    Mr. McHugh [continuing]. So that we can get to today's 
distinguished guests.
    But, again, thanks to you. Best wishes to you.
    And thanks for our distinguished panelists for being here.
    I yield back.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 48.]
    Dr. Snyder. Thank you, Mr. McHugh. Your statement will be 
included in the record.
    I just want to make the comment, we had actually been 
wanting to do this hearing for some time because it is a topic 
that--you know, this subcommittee has responsibility for both 
oversight and any legislation in this area.
    We had postponed it several weeks in anticipation of 
General Wallace having his final report released. It is not 
clear to us why it hasn't been released. We have been assured 
more than once that it would be forthcoming, because it may 
well be helpful in terms of shaping anything as we move 
forward.
    But we still haven't had that, and we just made a decision 
to go ahead and do this hearing.
    I want to give Congresswoman Davis, who is the incoming 
chairperson of this subcommittee, an opportunity to make any 
comments she would like to make.
    Mrs. Davis of California. Thank you, Mr. Chairman. Once 
again, I want to commend you and thank you for your leadership 
on this subcommittee.
    And also, to Mr. McHugh, who has been on the subcommittee 
for many, many years, and I look to work with very closely. And 
I look forward to that, sincerely.
    And thank you all for being here. These are issues that go 
to the heart of our families and certainly represent some very 
difficult times that we know they have all been through. And 
hearing from you, hearing how we can relate to this process in 
a way that certainly is open for families and is in their best 
interest, as well as the best interest of the service, is 
something that we are looking forward to today.
    Thank you, Dr. Snyder, for holding this hearing.
    I know that we have other members who are not on the Armed 
Services Committee who had an interest, and they might also be 
joining us as well because they have heard from their 
constituents and would be very interested in knowing all that 
you have to share today.
    Thank you very much.
    Dr. Snyder. Thank you, Ms. Davis.
    Let me introduce the panel. We have representatives of each 
of the services today: Brigadier General Reuben D. Jones, the 
adjutant general of the Army; Mr. Patrick McLaughlin, the 
acting assistant deputy chief of naval operations for manpower, 
personnel, training and education; Major General Anthony 
Przybyslawski, for the U.S. Air Force, the commander of the Air 
Force Personnel Center at Randolph Air Force Base in Texas; and 
Brigadier General Michael Downs, United States Marine Corps 
(USMC), retired, the director of the Personnel and Family 
Readiness Division. Those are our four witnesses.
    I think if we would start with you, General Przybyslawski, 
and let's just move down the line with your opening statements.
    General Przybyslawski.

STATEMENT OF MAJ. GEN. ANTHONY F. PRZYBYSLAWSKI, COMMANDER, AIR 
             FORCE PERSONNEL CENTER, U.S. AIR FORCE

    General Przybyslawski. Mr. Chairman, distinguished 
committee members, thank you for the opportunity to testify in 
front of you today to talk with you about policies and 
procedures regarding the notification of next of kin of wounded 
and deceased service members.
    Our airmen have been continually deployed and globally 
engaged in combat missions for more than 16 straight years. 
Today, airmen are fully engaged in the interdependent joint 
fight and stand prepared for rapid response in conflict around 
the globe.
    Sixteen years of combat operations has taken its toll, and 
many fine American airmen have paid the ultimate sacrifice.
    I would like to correct my written testimony for the 
record. Due to a recent casualty, the Air Force has now 
suffered 367 combat-related injuries requiring next-of-kin 
notification and 36 combat-related deaths requiring next-of-kin 
notification since September 11, 2001.
    Upon the death of an airman, no greater charge is upon us 
than to notify the next of kin in a timely and accurate manner 
with dignity, compassion, and honor equal to their sacrifice.
    Policies and procedures for notifying next of kin are 
detailed in our Air Force instructions. This is zero-defect 
business. Rest assured the Air Force takes this charge with the 
utmost seriousness.
    To highlight the emphasis we place on casualty services, we 
employ 83 full-time, fully trained casualty assistance 
representatives assigned to every major installation worldwide.
    Our notification process is equally efficient. In the last 
12 months, the Air Force had 289 next-of-kin notifications, 93 
percent of which were notified within 4 hours of the confirmed 
casualty determination, as required by our Air Force 
instructions. Of the seven percent, when notifications took 
longer than the four hours, these delays were due to 
circumstances beyond our control.
    Overall casualty management is an integral function of 
command. Commanders at all levels are charged to give the 
casualty services program their utmost personal attention. 
Prompt, accurate reporting, dignified and humane notification, 
and efficient, thorough, and compassionate assistance to the 
next of kin are the program's primary goals.
    Current policies and procedures regarding individuals 
wounded or killed by friendly fire followed the same strict 
guidelines for any notification.
    If an airman is deceased, the airman's commander, or a 
designated representative, will lead the notification team to 
personally notify the next of kin as soon as possible.
    The next of kin are provided as much information as is 
known on cause and manner of death, during the initial 
notification. If the manner of death is suspect, next of kin 
will be so advised.
    The member's commander provides a letter of circumstances 
to the next of kin within five days following initial 
notification, to clarify circumstances and advise of any 
ongoing or pending investigations.
    If the commander made the notification in person to the 
next of kin and there is no question regarding cause and manner 
of death, then a letter of circumstance is optional.
    The commander will continue to keep the family informed 
about any investigations until complete.
    For wounded personnel, notification to the family normally 
occurs telephonically by the service member, if able; or the 
service member's commander or attending medical physician.
    The service member, or member's next of kin if member is 
incapacitated, will be kept informed about any investigation 
results until the case is closed.
    The Air Force Office of Special Investigations initiates 
death investigations based on a service member's possible 
manner of death. In these instances, the Air Force Office of 
Special Investigation initiates death investigations any time 
an individual's manner of death is potentially homicide, 
potentially suicide, or initially undetermined.
    The Air Force is required to follow strict protocol when a 
friendly fire incident occurs and when it is suspected. During 
a casualty notification, the member's commander or designated 
representative will notify the next of kin and provide the 
known facts at that time and will keep the next of kin informed 
through a letter of circumstance on any changes to what was 
previously communicated and upon updates of any pending 
investigations.
    The Air Force Office of Special Investigations would 
initiate an investigation into such an event to determine the 
facts and circumstances surrounding the incident and to assist 
in determining whether the actions leading to the event, fatal 
or not, were the result of negligence or the result of 
intentional criminal conduct.
    In 2005, the governing directive, Air Force Instruction 36-
2002, was substantially revised to include more detailed 
procedural guidance. The previous edition was dated 1994. This 
included updating and clarifying roles and responsibilities, 
clarifying guidance on circumstance, providing instructions and 
format for condolence letters, and updating training 
responsibilities.
    Today's airmen are performing at the high standards that 
have made our hallmark for as long as there have been American 
airmen. Our airmen are fully prepared and engaged to ensure 
today's air, space and cyberspace dominance.
    When an airmen makes the ultimate sacrifice, prompt, 
accurate reporting, dignified and humane notification, and 
efficient, thorough, and compassionate assistance to the next 
of kin are the hallmark of the Air Force's program.
    Commanders' personal attention to the casualty services 
program ensures your Air Force remains the most respected air 
and space force in the world
    We appreciate your unfailing support to the men and women 
of our Air Force.
    You have my written testimony for the record, and I look 
forward to your questions.
    [The prepared statement of General Przybyslawski can be 
found in the Appendix on page 65.]
    Dr. Snyder. All the written statements will be made a part 
of the record. Thank you, General Przybyslawski.
    General Jones.

 STATEMENT OF BRIG. GEN. REUBEN D. JONES, ADJUTANT GENERAL OF 
                      THE ARMY, U.S. ARMY

    General Jones. Chairman Snyder, Representative McHugh, 
distinguished members of the subcommittee, thank you for this 
opportunity to meet with you on behalf of America's Army.
    The Army, over 1,000,000 strong, serves proudly around the 
globe. Your continued support to our Army is critical, and we 
thank you.
    There is no greater act of heroism than serving this great 
country in uniform at a time of war. For more than two 
centuries, American men and women have given their lives to 
gain and defend the freedoms we enjoy today. In return for that 
bravery, we owe them the deepest gratitude.
    The soldier remains the center of our formation. Honoring 
the sacrifice of the soldier and their family is the mission of 
the Army Casualty and Memorial Affairs Operations Center. We 
take seriously our obligation to our fallen warriors to support 
their families during their time of grief and sorrow.
    Our warrior ethos states that will never leave a fallen 
comrade. We have the same covenant with the families of our 
fallen warriors.
    We are committed to providing the families with accurate 
and timely information as soon as it is known and verified. Our 
goal is to have a system that is 100 percent correct out of 
respect and memory of our fallen warriors and to provide solace 
to their families.
    The Army leadership expects those families who suffered a 
loss of a warrior to receive the fullest possible accounting of 
the circumstances that led to that soldier's death.
    As I speak to you today, we have provided casualty 
notification to over 22,000 soldiers who have been killed or 
wounded since the start of the global war on terror.
    Since the death of Corporal Tillman in April 2004, we have 
conducted over 2,200 official casualty notifications. Of these, 
16 were initially reported as possible friendly fire and later 
confirmed. In addition, 15 cases initially reported as hostile, 
renotifications were made when we learned of possible friendly 
fire.
    The Army is a very complex but caring organization. We 
continue to strive to improve our procedures and processes, 
including the notification process for deaths caused by 
friendly fire. Casualty notification of families of our fallen 
soldiers depend on timely receipt of accurate information from 
theater commanders on the ground.
    The Army has made numerous changes following our review of 
the notification process in friendly fire cases, including 
Corporal Tillman's death. My written statement outlines in much 
more detail the changes that we have made to the notification 
system. However, I would like to focus on a few and probably 
perhaps the most significant ones.
    First, the Army now requires to conduct a comprehensive 
investigation on any hostile death. The Army Criminal 
Investigation Command and unit commanders are required to 
notify the operations center of any ongoing death investigation 
and provide copies upon completion.
    The operations center then cross-references these 
investigations with casualty circumstances to ensure there are 
no discrepancies.
    Probably the most enduring change requires the casualty 
assistance centers to certify casualty notification officers, 
and casualty assistance officers are trained for duty prior to 
an assignment.
    To assist in this training effort, we have produced a 
training video and made training materials available online.
    When friendly fire incidents are suspected, we require 
units to immediately call the operations center. If the event a 
suspected friendly fire is confirmed, the unit must immediately 
submit a casualty report to update or correct information 
already provided. Families are notified that the incident is 
under investigation.
    As soon as a friendly fire determination is made, based on 
investigation, the reporting unit submits a supplemental 
report.
    Once the combatant commander approves the investigation for 
the release to families, the operations center contacts the 
casualty assistance officers and offers a family presentation 
to the next of kin. Normally, a colonel from the soldier's 
chain of command conducts the presentation outlining the facts 
and findings of the soldier's death.
    The Army has recently implemented additional measures to 
further improve our process.
    We have established a long-term management branch that 
provides long-term support to family members. This office will 
meet the needs of surviving family members 24 hours a day, 7 
days a week.
    Finally, we developed a single-source training aid that 
clearly explains all actions that commanders must accomplish 
when friendly fire is suspected. The Army will distribute this 
training aid to commanders around the world within the next few 
days.
    In conclusion, the Army recognizes and deeply regrets the 
pain and suffering caused when we fail to meet the standards of 
casualty notification. We believe the changes that we have made 
and the procedures now under way ensure that families of our 
fallen warriors receive timely and accurate information.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Jones can be found in 
the Appendix on page 51.]
    Dr. Snyder. Thank you, General Jones.
    Mr. McLaughlin.

 STATEMENT OF PATRICK M. MCLAUGHLIN, ASSISTANT DEPUTY CHIEF OF 
   NAVAL OPERATIONS, AND CHIEF OPERATING OFFICER (MANPOWER, 
                PERSONNEL, TRAINING & EDUCATION)

    Mr. McLaughlin. Chairman Snyder, Ranking Member McHugh and 
distinguished members of the Military Personnel Subcommittee, 
thank you for the opportunity to appear today and discuss 
Navy's casualty assistance program, and in particular our next-
of-kin notification process and procedures.
    Our commitment to support and assist sailors and their 
families, especially in times of crisis, is a sacred trust. 
When our men and women go into harm's way, they must do so 
confident in the knowledge that Navy will sustain their loved 
ones should tragedy befall them.
    Our three-tiered casualty assistance program consists of a 
25-member staff in Millington, Tennessee, which can be 
augmented on a short-term notice by trained and capable 30-
member reserve unit.
    Additionally, we have regional casualty coordinating staffs 
throughout the United States and others around the world.
    Headquarters and regional staffs provide training, 
guidance, support and oversight for some 2,000 casualty 
assistance call officers, or CACOs, who provide direct and very 
personalized assistance to families of our casualties.
    When headquarters receives the personnel casualty report 
from a commanding officer advising of the death of a sailor or 
involuntary absence of a sailor whose fate cannot be 
determined, our worldwide network immediately responds by 
dispatching trained CACOs to notify next of kin in a prompt and 
compassionate manner.
    Regardless of where the casualty occurs or whether it 
results from an accident, hostile or non-hostile action or 
perhaps friendly fire, the CACO informs the family of the fatal 
circumstances surrounding the incident as provided in the 
casualty report and in an honest and forthright manner. Next of 
kin are notified that additional details will be provided as 
soon as they become available and whether investigations are to 
be conducted.
    If investigations are conducted, during subsequent visits 
the CACO assists the next of kin in requesting copies of the 
completed investigations.
    The notification visit is just the initial contact in what 
often becomes a very close, emotional and lengthy interaction 
between the CACO and next of kin, often continuing for many 
months as the family comes to grips with the devastating news 
and seemingly insurmountable grief.
    The CACOs remain with the next of kin as they must initiate 
timely funeral arrangements and apply for survivor benefits, or 
perhaps faces a prolonged and anxious waiting period in the 
hope of an absent loved one's return home.
    In what is often considered the toughest job in the Navy, 
assigned CACOs make frequent visits with next of kin to guide 
them through the processes, provide a constant source of 
comfort, and support and ensure that their needs during these 
most difficult of times.
    We view as solemn obligation our inherent responsibility to 
take care of Navy members and their families faced with such 
trying circumstances.
    We constantly evaluate our program to identify any 
weaknesses and to initiate timely and effective improvements. 
We remain committed to provide the most compassionate and 
empathetic support possible. Our sailors and families deserve 
nothing less.
    This concludes my opening statement. I have a written 
statement for the record.
    [The prepared statement of Mr. McLaughlin can be found in 
the Appendix on page 58.]
    Dr. Snyder. Thanks, Mr. McLaughlin.
    General Downs.

  STATEMENT OF BRIG. GEN. MICHAEL P. DOWNS, (RET.), DIRECTOR, 
 PERSONAL AND FAMILY READINESS DIVISION, MANPOWER AND RESERVE 
      AFFAIRS DEPARTMENT, HEADQUARTERS, U.S. MARINE CORPS

    General Downs. Thank you, Mr. Chairman, Representative 
McHugh, other subcommittee members, for this opportunity to 
testify on Marine Corps casualty notification policies and 
procedures.
    Every Marine Corps casualty is of serious concern to the 
Corps. Our ethos, culture and policies require that we 
compassionately and respectfully notify the next of kin of 
deceased Marines, and in cases of injured casualties, to ensure 
appropriate tracking and high quality care are provided by all 
agencies involved.
    There is no standard casualty. Marines and families react 
and grieve in different ways. And all Marine Corps casualty 
procedures, from notification to long-term care, are 
specifically tailored to appropriately consider the human 
elements involved.
    We know that accurate and timely information are vital and 
endeavor always to ensure our Marines and their families are 
informed and supported to the best of our ability.
    I am proud of the way the Marine Corps looks after our 
wounded Marines and their families and the families of our 
fallen Marines. I can assure you the Marine Corps will never 
lose sight of the importance of proper casualty notification 
and care.
    That is it, sir.
    [The prepared statement of General Downs can be found in 
the Appendix on page 72.]
    Dr. Snyder. That is fine, General Downs. Thank you.
    We will begin our questions. Mr. McHugh and I will put 
ourselves on the five-minute clock, which means we may go 
around--I actually expect we will go around a second time, but 
we will see.
    I wanted to begin by saying years ago, Mr. McHugh, in the 
olden days, when I was a young man and spent time in the Marine 
Corps, General Downs, I was in Vietnam. I was not a grunt in 
Vietnam, but I worked in the adjutant's office for the 1st 
Marine Division. That was about 12 miles north of Da Nang.
    And I always remember this one case. In fact, 
coincidentally, I was involved with what we called in those 
days well reps and I think it was cong reps. You know, welfare 
reports, like a family member saying, ``I haven't heard 
from''--you know, ``Johnny hasn't written home,'' or they were 
congressional inquiries about something had occurred.
    But one of mine, this very, very sad case, I remember 
because it was from a town in northern California where my 
mother graduated from high school. And a family just out of the 
blue got a call from a local funeral home that the casket had 
arrived with their son and when were they going to come down 
and make arrangements for the funeral.
    They had received no notification from anyone in the 
military or in the government. Just a terrible tragedy. And, of 
course, they were hoping, hoping, hoping that it had been a 
mistake and that was not their son, but it turned out to be.
    I have always remembered that case when some of us in 
Congress get frustrated with the incredible details of the 
process and the steps that you all have to make sure that your 
men and women go through in terms of family notification, 
because that is one of the worst things that can happen. I 
think that probably the only thing worse would be if a family 
was notified of someone having been killed that turned out not 
to have been that family.
    But these are terrible, terrible tragedies for families. So 
I appreciate some of the complexity and the detail and the 
attentiveness.
    The second point I want to make is I think there sometimes 
is a--maybe it comes from more movies than from real life, that 
somehow we may--there may be some of our men and women in 
uniform that think they may be helping families by changing the 
facts around some when something happens to one of our 
soldiers.
    And the reality is, sooner or later the truth does come out 
and then for that family, they have to go through not only the 
grieving process the first time but it is like a second kind of 
grieving as they have to deal with the second facts situation.
    So that is why this Congress and the American people and 
you all have been so concerned when we see these stories that 
have come out that have turned out to be terrible inaccuracies 
and flat-out falsehoods on some of these more public cases.
    So the committee's interest, as is yours, is being sure 
that the process is one that, as close as it can be to 100 
percent right every time, the better off we are as a Nation and 
the better off these families are.
    I wanted to ask a first question, General Jones.
    As I made a comment about General Wallace's report, what is 
the reason that that report has not been released, or his 
conclusions haven't been released? We were under the impression 
that the investigation was done. What is the status? When can 
we anticipate seeing the final results of the Tillman case?
    General Jones. Sir, the review on that case is ongoing. And 
it would be inappropriate for me to comment on it at this time.
    Dr. Snyder. I am not asking you to comment on any details 
about what is in the report. I don't want you to. That would be 
inappropriate.
    I am asking you, when can we anticipate, or do you have an 
idea when we can anticipate when it will be made public what 
the results are?
    General Jones. Sir, I will take that from the record, since 
it is out of my lane. And we will get you an answer to that 
question.
    [The information referred to can be found in the Appendix 
beginning on page 83.]
    Dr. Snyder. All right.
    The second question I want to ask is--and I need to 
understand, I think, from each one of you--and, Kevin, I spent 
some time yesterday having a friendly discussion in my office 
about, if I were somebody out there in the field and had lost 
one of my personnel, how would I react if there was a different 
level of certainty about what happened.
    Several of you have used the phrase, in your written 
statements, ``suspected friendly fire incident.'' I define 
that--and my staff disagrees with me a little bit--I define 
that to mean, more likely than not, ``suspected friendly fire 
incident''--more likely than not that triggers a certain 
investigation.
    One of you in there, in your written statement, referred to 
a ``potentially friendly fire incident.'' I saw the phrase by 
one of you, ``the possibility of friendly fire.''
    Now, does the level of certainty about what occurred in an 
incident trigger a different response from the system as you 
all have described?
    General Jones, let's start with you, and then we will go to 
General Przybyslawski and Mr. McLaughlin, General Downs.
    General Jones. Sir, we use the term ``suspected'' because 
we want to make sure that as we start this process that we have 
the most accurate information possible. If that is the fact 
that it is unknown or suspected, we want to tell that family 
that as soon as possible as we get that information from 
commanders on the ground. And then we will follow up with that 
family once we confirm that information.
    Dr. Snyder. So if there is a possibility of a friendly fire 
incident but the folks on the ground were to say, ``You know, 
probably when we are all done with this it is going to turn out 
not to have been a friendly fire incident, but there is a 
possibility, we have got an investigation going on,'' are the 
families informed of that the same way as if the commander were 
to conclude, ``It probably is going to turn out to be a 
friendly fire incident''?
    General Jones. Yes, sir.
    Dr. Snyder. My time has expired, but if anyone wants to 
make, General Przybyslawski or Mr. McLaughlin or General Downs, 
any comments or response to my question.
    Mr. McLaughlin. The only comment I would make, sir, is if 
there is uncertainty around the circumstances of the death, we 
will do a Judge Advocate General Manual (JAGMAN) investigation. 
What we will notify the families is the facts of the case and 
that an investigation is under way. So that would be how we 
communicate that to the family member.
    Dr. Snyder. General Downs.
    Mr. McLaughlin. And then when the investigation is done, 
have somebody come out and walk them through the results of 
that investigation.
    Dr. Snyder. General Downs.
    General Downs. Of course, immediately you have to rely on 
the units in contact to make that judgment. When the judgment 
of that initial commander is that this is a suspected friendly 
fire, then that information would trigger an investigation.
    When the investigation reaches the division commander level 
and has been judged to be a friendly fire, then if the original 
personnel casualty report did not indicate friendly fire, a 
supplemental casualty report is submitted that does so.
    As soon as a casualty report has that information, that 
information is passed to the family through the CACO or the 
individual command if, in fact, it is an injured Marine.
    Dr. Snyder. General Przybyslawski.
    General Przybyslawski. Yes, sir. I wouldn't have too much 
to add to that, because it is the same throughout the services.
    If it is questionable, undetermined cause, then that will 
open up a whole different avenue of investigation for the Air 
Force through the Office of Special Investigations (OSI). A 
parallel: Even a case of suicide is investigated to ensure that 
there was no malfeasance associated with that suicide.
    Dr. Snyder. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. I am going to continue 
along those same lines, because I think it is an important 
issue.
    General Jones, when I read about the new Army policy to 
investigate all what you describe and what the policy describes 
as hostile deaths, the immediate reaction is, ``It sounds like 
a good idea.'' And I am not suggesting it isn't.
    But as I thought about it a bit more, I think it begs the 
question: What is a hostile death? Is that any death in the 
combat zone? Any death that occurs in engagement with an enemy 
force? How do you define hostile death?
    General Jones. Sir, we define that as any death that is 
incurred when in contact with the enemy or a combatant or enemy 
projecting force. So along those lines that you stated are the 
guidelines that we use, sir.
    Mr. McHugh. So am I safe in assuming that, particularly as 
a follow-up to the discussion the chairman just had with each 
of you, the questions of possible enemy, friendly fire, 
suspected friendly fire, whatever word you want to put in 
there, that that is the motivator for the Army going to that 
official policy?
    Why parse words? If there is a question, you investigate 
it. Am I correct in that assumption?
    General Jones. Yes, sir.
    Mr. McHugh. I would say to the rest of the panel members, 
as I listened to your response, it rather sounded as though 
that is what your procedure is in practice, although you don't 
really state that.
    Have I missed something in your statements? Do you also 
have a policy, although unstated, that if it is a hostile 
death, a death that occurs under any kind of circumstance, you 
investigate? Or is there only when you have some little 
suspicion?
    How do you proceed on that, General Przybyslawski?
    General Przybyslawski. ``In action'' I guess is the 
characterization, sir. If we consider this an act of terrorism 
or the member is engaged in a combat situation, that is 
considered a hostile event.
    We, the Air Force, most recently July of last year, had 
someone in the area of responsibility in Iraq who was killed by 
his roommate--accidental firing of a weapon. That was not 
characterized as a hostile event, even though it was in the war 
front.
    So it is engagement with the enemy.
    Mr. McHugh. I am sorry. I am not making my question clear. 
I understand you don't only investigate hostile deaths. I mean, 
there are other suspicious circumstances.
    But do you have a policy, as the Army now does, that you 
investigate all hostile deaths? Or must there be a 
predetermined suspicion of friendly fire?
    General Przybyslawski. I would still go back to the fact 
that if it is undetermined, the cause of the death, then it is 
investigated.
    Mr. McHugh. How can you determine what the cause is if you 
don't investigate?
    General Przybyslawski. We rely on the commanders in the 
field to make that call.
    Mr. McHugh. Okay. All right. That is fine. Appreciate it.
    General.
    General Downs. Sir, the Marine Corps does not have a policy 
to investigate all hostile deaths. We only investigate those 
deaths when there are, in the view of the engaged commanders or 
their superiors, some suspicion or uncertainty as to the cause.
    Mr. McHugh. Mr. McLaughlin.
    Mr. McLaughlin. Sir, the Navy has the same policy.
    Mr. McHugh. As whom? I can guess, but I don't want to 
guess.
    Mr. McLaughlin. As the Marine Corps.
    Mr. McHugh. As the Marine Corps.
    Mr. McLaughlin. That we only investigate those that are 
uncertain. And we rely on the commander, and in many cases the 
fleet Marine Corps who our sailors are deployed with, to make 
that determination.
    Mr. McHugh. I have got a couple other more broadly based 
questions. I have more time for this perhaps the next round. So 
let me just ask another, I hope brief, question, Mr. Chairman.
    General Jones, we have had some back and forth in 
preparation for this testimony, where you clarified that the 15 
cases that are in your testimony relate to post-April 2004, 15 
cases of hostile fire that was actually caused by friendly 
fire.
    What is the figure for the total Army since what we define 
as the beginning of the global war on terror, September 11, 
2001?
    General Jones. Sir, I----
    Mr. McHugh. I want to redefine so you understand. How many 
cases originally reported as hostile fire in that entire period 
actually turned out to be friendly fire?
    General Jones. Sir, I don't have that number with me today. 
But I will take it for the record and get it for you.
    [The information referred to can be found in the Appendix 
beginning on page 83.]
    Mr. McHugh. All right. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I wanted to turn to you, General Downs, for a moment, and 
just try and understand a little bit better, of the personal 
casualty reports for friendly fire that the Marine Corps has 
done--and you mention, I believe, 19. Is that correct?
    General Downs. Nineteen of the number of casualties, Ms. 
Davis.
    Mrs. Davis of California. And----
    General Downs. Two incidents.
    Mrs. Davis of California. And how many friendly fire 
investigations have there been for both wounded and killed, 
then? The ones you mention, the 19, only were fatalities; is 
that right?
    General Downs. The two incidents that are referenced in the 
statement--one, the first, involving 18 Marines were deceased. 
The second incident involved one Marine, and that Marine was 
wounded. He remains alive.
    Mrs. Davis of California. Okay.
    General Downs. Those are the only two incidents since the 
beginning of OEF/OIF, as queried through the Defense Casualty 
Information Processing System just this week, in which friendly 
fire was indicated as circumstance surrounding the casualty.
    Mrs. Davis of California. Are there updated reports, 
though?
    General Downs. This includes all updated reports, Ms. 
Davis. The Casualty Information Processing System includes the 
original personnel casualty report and any supplements that 
have been issued. So the information is updated as each 
Personnel Casualty Report (PCR) is received.
    Mrs. Davis of California. Do you have incidents where you 
are doing a certain number of investigations of friendly fire 
but that doesn't necessarily match?
    General Downs. While I could only speculate, the mandate 
for investigations for determined friendly fires is that this 
would be the responsibility of the combatant commander, in this 
case Central Command (CENTCOM).
    And to my knowledge, there are only two investigations, the 
two incidents that I have mentioned here, that were in fact a 
receipt of that level of investigation.
    To the point of whether or not the infantry company 
commander or the engaged company commander or battalion 
commander had a preliminary inquiry and looked into a 
circumstance, I would expect that that would go on on a regular 
basis, and that they wouldn't raise to the level of being an 
investigative report.
    Mrs. Davis of California. Has the Navy or Marines looked 
at, I guess, the process really that the Army is going through 
now of greater investigations? You are investigating all deaths 
now. Has that been raised to the level of trying to expand that 
to the Marines and Navy? Do you not feel that that is 
necessary?
    General Downs. That would be my judgment, Ms. Davis, that 
it is not necessary, that we have to rely on the individual 
commanders to make those judgments.
    Quite frankly, a number of the casualties that are received 
primarily through improvised explosive devices (IED), there is 
no question as to what in fact occurred and to burden folks 
with formal investigations would be not warranted.
    Mrs. Davis of California. So just so I can understand for 
sure, the personnel casualty reports that were issued based on 
the reports coming to the commander, are there any 
discrepancies of those reports and the number of actual 
incidents of friendly fire, to your knowledge?
    General Downs. The policies regarding personnel casualty 
reports mandates that if there is any determination of friendly 
fire or any other circumstances that lend information that 
would be the types of information that we would be compelled to 
or desirous of making certain that the family is aware of all 
circumstances are in the report.
    So what I am saying is there are no personnel casualty 
reports, either in the primary or supplemental reports, 
submitted other than the two incidents that I mentioned in 
which friendly fire is mentioned as a factor.
    Mrs. Davis of California. Thank you.
    My other question that we might get to is how you integrate 
the information when it involves more than one service. And one 
example of the National Guard perhaps having seen somebody in a 
house and the Army is there, the National Guard comes by. There 
are other services that are involved. How do those incidents 
differ from when it is one service per se? And perhaps we will 
get into that at a later point.
    How do you integrate those processes, since there are some 
investigations with the Army but not necessarily for the 
Marines? Who makes those decisions, when you have joint 
services that are involved in an incident?
    Thank you very much.
    Dr. Snyder. Thank you, Ms. Davis.
    Mr. Jones.
    Mr. Jones of North Carolina. Mr. Chairman, thank you very 
much.
    And, General Downs, since you are a general in the Marine 
Corps and I have Camp Lejeune in the district--I will ask each 
one of you--I want to talk about, briefly, the condolences, the 
condolence letters.
    I know that the President writes the family. Does the 
secretary of the Navy, Air Force, Army, does he or she write 
also a letter? Or does that come from the Department of 
Defense, the Secretary of Defense, Mr. Gates?
    General Downs. In the Marine Corps, both the secretary of 
the Navy and the commandant of the Marine Corps send a letter 
to the next of kin of all casualties, all deceased.
    Mr. Jones of North Carolina. I assume that is true for all 
the services.
    General Jones. Yes, sir.
    Mr. Jones of North Carolina. We dealt with this, and there 
has been no problem since. But I remember in 2003--and I do 
want to ask this question. At one time we held a full committee 
hearing on the fact that, particularly in the beginning of the 
Iraq war, the coordination between the Department of Defense, 
or maybe it was the different services, in notifying the 
family, and then there would be some type of press release 
about the death of the soldier or the Marine or the airman. I 
think that has been corrected.
    Will you tell me how that process--and anyone can speak to 
this--does the family notify the papers that the loved one has 
been killed in action, or does the service do it themselves?
    General Downs. Sir, one of the things that we do once all 
family members are notified, we post that information to the 
Defenselink, which is a Department of Defense Web site which 
is, of course, available to all media outlets.
    And based on practice, I note that local funeral homes also 
release that information to the media as well.
    Mr. Jones of North Carolina. Okay.
    General Downs, just one other question. And I read your 
comments and glanced through everybody's comments. But for the 
family, the week after the funeral, and let's say the two weeks 
after the funeral, there is an officer assigned to that family. 
Let's say that this is a corporal, a young, married corporal 
with a child, and they haven't had the experiences of the world 
that we have at this age of life.
    Does the officer that is assigned, I assume, for a period 
of time--would one of you speak to that--after the funeral, for 
that family that is in the military, does each service assign 
an individual, I don't mean to be there 24 hours a day, but to 
communicate, to help deal with the requests of the loved one, 
the will, if they had a will, and that type of thing?
    Can you give me some idea of how that process works? You 
did have it in your testimony. I think I understand. But would 
you explain to the committee how the week after the death or 
the funeral--how long do you still have an ongoing 
relationship? Obviously, over a period of time it won't be as 
much as it is the first two or three weeks.
    General Downs. The casualty assistance calls officers--
which would be either an officer, commissioned officer or a 
staff non-commissioned officer--once assigned, are assigned as 
long as needed. And so there is no cutoff.
    In fact, the period of time that you are speaking to, 
Congressman Jones, I would think would be the most active time 
of interaction between the casualty assistance calls officer.
    As you would imagine, these trained officers are not 
familiar with specific details of each and every benefit. But 
they are specifically trained to be the link for the next of 
kin to those agencies and to facilitate that work.
    Additionally, now for injured Marines, as of 1 April, the 
commandant of the Marine Corps established the Wounded Warrior 
Regiment and they are integrally connected with the family 
members in addition to any assigned CACO if there was one for 
an injured.
    Mr. Jones of North Carolina. I am sure each service works 
about the same way.
    Mr. McLaughlin. Yes, sir.
    General Jones. Yes, sir.
    General Przybyslawski. Yes, sir.
    Mr. Jones of North Carolina. Thank you.
    Mr. Chairman, my time is about up, so I will yield back.
    Dr. Snyder. Thank you, Mr. Jones.
    Ms. Boyda.
    Mrs. Boyda. Thank you, Mr. Chairman.
    I just had a series of questions to try to understand how 
everything is working.
    My governor asked if I would follow up on a question. She 
had received a letter from the governor of Ohio saying to be on 
alert that they had one of those really kind of difficult but 
unique situations where a single parent, a father, was killed 
in action and the next of kin was a baby. And they went through 
a series of just very difficult experiences with trying to move 
things forward, because the next of kin in fact was a baby. And 
she asked me if I would just follow up on that and find out 
what the procedures are.
    And if I could ask for that just today, I would appreciate 
it. But I would appreciate a follow-up in writing, what happens 
when we have a single parent and, you know, an infant or a 
minor is considered the next of kin, what do you do in that 
situation?
    [The information referred to can be found in the Appendix 
beginning on page 85.]
    General Downs. I mean, first and foremost, the single 
parent has a mandate to have had arrangements made prior to 
deployment to ensure that the child or children are taken care 
of during that deployment. So there is an official arrangement 
that this individual has made.
    I recognize that in some cases over time those 
circumstances change, but, as indicated earlier, no casualty 
call is a standard one, and this one would require very special 
care. And we would try to bring in those kinds of support 
agencies that were necessary to see to it that this child was 
appropriately taken care of and whoever was assigned as the 
guardian to act for them.
    I believe the issue, again, was just in getting funds 
flowing as quickly as possible to take care of that young 
child.
    Mrs. Boyda. So am I assuming that you all would stay with 
that child on that child's behalf and expedite in any way you 
could those funds? Is that part of your mandate?
    What I am trying to figure out is--and certainly if we were 
to find out about it, we would jump in and help expedite that 
process in any way possible.
    General Downs. Absolutely. I mean, we would stay in contact 
with that child and whoever was assigned to act for them, 
dependent on the age of the child. In most cases, if not all, 
we are speaking to children who are not of majority age and 
would have to have somebody to be acting on their behalf, 
either through personal arrangements or court decree.
    Mrs. Boyda. Just, again, a specific request to watch out 
for those kinds of incidents and recognize how delicate and 
sensitive they are. And thank you. I am sure that you are aware 
of them.
    I had a question about notification of our offices. And we 
get notification of men and women who have been killed in 
action. And I am not quite sure where that comes from, but 
thank you for that.
    I was just wondering if it would make sense for us to get 
notification of those--you had said that there were 367 combat 
injuries notifications. Is there a way that Members of Congress 
should be notified for those serious types of injuries when 
your procedures come into play? Does that mean that we should 
be notified, or what to you think about that? Or is that----
    General Przybyslawski. Ma'am, I would say that first and 
foremost, what is important, is what does that casualty want to 
have happen? And we really leave that up to their discretion. 
But we do not publish a list of casualties for the media by 
cases. So it is up to that individual, again, to keep their 
privacy.
    Mrs. Boyda. Okay. Do you offer that as something, again, to 
say, ``Would you like for me to contact your representative?'' 
Is that even something that is offered?
    Again, I am not even suggesting that it should be. I am 
just trying to figure out what does happen.
    General Jones. Ma'am, in the Army, based on recent 
incidents at Walter Reed and other cases that we have worked, 
there is an effort ongoing in the Army whereby we ask a soldier 
what their preferences are, just like the Air Force had a 
concern with the release of the soldier's information.
    So we do have an ongoing effort to get the soldier's 
desires; sort of like a living will, but not exactly.
    Mrs. Boyda. And, again, is one of your questions, ``Would 
you like for me to contact your congressional representative?''
    General Jones. Absolutely.
    Mrs. Boyda. Okay. That is all. And then I did have a 
question about another one, but my time is up.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here today. We 
appreciate your service to our country.
    After 9/11, I was actually trained as a casualty assistance 
officer, as an additional assigned duty. And when I was 
deployed to Iraq, I obviously was cognizant of some friendly 
fire incidents and deaths.
    Probably this is most directed to General Jones. Now, I 
know it has changed in 2006. They have a two-man team, which is 
different than when I was trained, that goes and notifies their 
family, and one, hopefully, a chaplain, unless circumstances 
don't allow that.
    What is the training for the casualty assistance officer as 
it is, say, practically speaking? Is it a video? Is it some 
training with the chaplain? Can you describe that in detail, 
sir?
    General Jones. Yes, sir.
    Sir, based on us reviewing the multitude of casualties, as 
well as information that we receive from general officers who 
attend funerals, as well as information communicated back to us 
by the casualty assistance officers, we have developed a very 
robust training program that we have.
    And this program has two digital video disks (DVDs). It is 
done by professional actors, vignetted by real soldiers who 
have performed this mission. And it is very compelling. It 
conveys a sense of honor and duty to perform this mission for a 
family, for a fallen warrior.
    And we also have a mobile training team that travels around 
our casualty assistance centers and conduct training to ensure 
that the procedures in this book, to ensure that the procedures 
that we have online, to ensure that all of the other media 
materials that we have are being followed.
    So it is a very robust program in addition to the friendly 
fire pamphlet that we are releasing as well.
    Mr. Murphy. Is there also, like, a lessons learned for 
these new soldiers that are being trained, you know, the bad 
things that have happened in the past? Is there, as I 
mentioned, a lessons learned from the past, things that didn't 
go so well?
    General Jones. Sir, you are still on target. We get all the 
information--I wish the casualty system was a perfect system 
but, in that it goes into a human dimension, we get information 
and we change it when we find it.
    Mr. Murphy. No, roger, sir. I guess my question is, though, 
are we letting our soldiers--captains and above usually--are we 
letting them know, ``Hey, this is what happened, that didn't go 
so hot, that didn't go right, don't do the same mistake''?
    General Jones. Yes, sir. We have an information net for the 
personnel in units. We also conduct training with deploying 
units. We have what we call the S1 Net, which is a personnel 
net that we electronically send out lessons learned when we 
find them.
    So we have a system whereby we do communicate our lessons 
learned.
    Mr. Murphy. But that is only to the adjutant general for 
the S1 shops? I mean, I wasn't an adjutant, but that was my 
additional assigned duty.
    Does it get to the field--I won't say the tip of the 
spear--but that folk on the ground, those troops that actually 
go knock on that door on behalf of a grateful Nation, do those 
folks get the lesson learned that is on that S1 that you are 
referring to?
    General Jones. Yes, sir.
    In addition to that level, our leaders attend pre-command 
courses at both the brigade and battalion level. Each division 
commander that deploys has a session with my office as well. So 
we communicate that to the leaders, all of the lessons learned 
that we find.
    Mr. Murphy. Now this one is generally to the board itself.
    Gentlemen, it would seem that each service has a different 
handling of instances of friendly fire. I understand that each 
service is structured differently, but there seems to be that 
the process for death notifications, particularly in the cases 
of friendly fire incidents, could be streamlined.
    I would like your opinion on three things.
    One, would it be helpful for the services to have a DOD-
wide set of guidelines for policy and processes in these cases?
    Two, why should notification processes be different for 
friendly and hostile fire incidents?
    And three, you know, I know that in the Army specifically 
AR-15-6 investigations, there is a presentation to the 
families. That third question that I am asking, though, besides 
a presentation, do they get a copy of a redacted 15-6 
investigation in all these type of cases?
    So I am clear, I want to repeat, one, would it be helpful 
to have a DOD-wide set of policies in these cases? Two, why 
should notification processes be different for friendly and 
hostile fire incidents? And, three, do the families get a 
redacted 15-6 investigation?
    I would appreciate your comments. Thank you.
    Hopefully now. [Laughter.]
    General Przybyslawski. Sure. Yes, sir.
    I don't think that the Air Force needs any more DOD 
guidance on how the notification process should work in this. 
We are very successful--``successful'' is probably the wrong 
word to be using to characterize what this business is about. 
But the way we handle this is, I think, fine for our Air Force.
    We don't treat it as different. Again, if there is a 
questionable cause or undetermined, that is how we handle this 
with the family: by assigning a special point of contact from 
the investigating officer to the family to have the interaction 
and updates on the results of the case and the status of the 
case.
    That most recent case I talked about that occurred in July 
of 2006, you know, in a matter of 6 months, that member was 
with the family at least 15 times to make sure that the parents 
were up to speed on what was going on. So it is not treated 
differently until the facts are determined.
    And then for the family members getting the results of the 
case, I still believe that the Air Force or I think the DOD 
standard is still the Freedom of Information Act to get the 
redacted report. But I can clarify that for the record as a 
follow-up.
    [The information referred to can be found in the Appendix 
beginning on page 85.]
    General Downs. DOD policy already mandates that the 
combatant commander conduct a legal investigation on all known 
friendly fire incidents. So that policy exists.
    And the redacted report, or the report thus later redacted, 
that emanates from this investigations must go through the 
Freedom of Information Act. But our CACO facilitates and 
actually submits that. In both cases, the investigative report 
was personally briefed to the families involved.
    Mr. Murphy. Did they get a copy of that, sir, DOD-wide?
    General Downs. A copy of?
    Mr. Murphy. Of the redacted 15-6 investigation.
    General Downs. I would have to check with who is the owner 
of the redacted report. I don't see any reason why not, but it 
would be through staff judge advocate (SJA), I suppose.
    General Jones. Sir, we do in fact, immediately following 
the internment, we provide the family with the form and we ask 
them for documents they would like for us to get for them. And 
we hand-carry it through the initial phase of the process so 
that they can get that information.
    We have been working on many of the changes that I have 
spoken of today for about a year, some a little longer. We 
think that the policies that we have right now are working. And 
we continue to improve them once we find out a lesson.
    Mr. McLaughlin. We certainly believe there is sufficient 
DOD guidelines and that the services are consistent in the 
notification process. We constantly look at how we do the 
notification, how our CACOs are trained and make improvements 
there.
    As far as the notification to the next of kin, again, we 
are limited to factual data when it becomes available. And in 
the Navy's case, we haven't had the situation recently--we had 
one case. And so, in that case, we would treat that in the way 
that each CACO treats each circumstance differently.
    We do assist the family in getting copies of 
investigations. That is part of the CACO's responsibility.
    Dr. Snyder. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being before us. I know that 
this is a very difficult topic for all of us.
    But I would like to ask General Jones, what assurances can 
you give us that the Army will not have a Tillman episode 
happen again? And by that, I mean lies, cover-up, press 
opportunities.
    General Jones. Ma'am, I think, first of all, any 
information that is not conveyed properly and timely to the 
family is a regrettable incident. And we have learned these 
lessons before.
    Ms. Sanchez. Before what, before Tillman or after Tillman?
    General Jones. Over time we learn information about 
misinformation that has been passed to families.
    In every instance we want to make sure we get it right. The 
procedures that we put in place we think will help prevent 
those things from happening again.
    The sensitivity that the Army leadership has placed on this 
I think has ensured that it has gotten the proper focus within 
the Army. And I think that those procedures are working right 
now.
    Ms. Sanchez. How long did we know that friendly fire had 
hit Tillman before you talked to the family and told them the 
truth?
    General Jones. Ma'am, again, on any casualty, we want to 
make sure that we get it there as soon as possible.
    As far as the Tillman case, ma'am, let me see if I have a 
specific note for you.
    Ma'am, I don't have the specific note as to the entire 
timeframe, but I do know that----
    Ms. Sanchez. But we did know that Tillman had been killed 
by friendly fire way before the family was told?
    General Jones. Ma'am, I will have to go back to my initial 
statement that I made to the chairman that I think it 
inappropriate (sic) with the review ongoing concerning the 
Tillman case that I not discuss those details until a decision 
has been made and that information released.
    Ms. Sanchez. Might I suggest to the chairman that we will 
have to hold another hearing, because I would like to know this 
information?
    I mean, I knew that Tillman had been hit by friendly fire 
before the family even buried him, which means you knew way 
ahead of time. So I am very interested on when this whole 
report will come out and when we will get this information 
straight.
    Okay, gentlemen, what three areas do you think your 
respective service branch could improve on in notifying the 
next of kin for both wounded service members and fatalities?
    And maybe we will start with the Air Force here.
    General Przybyslawski. Making sure that the individual 
understands their personal responsibilities when they fill out 
the form. The data they provide us, the update of that data, 
the fact that family situations change over time, and making 
sure that the Air Force system fully understands--I don't know 
if that could be legislated, but it is a constant business of 
the commander in the field, making sure every time an airman 
deploys, before they go, they review that data.
    But if they don't correct it, we don't give up, as a result 
of that. A situation where the mother is ill, suddenly: ``Don't 
notify my mother.'' Those kinds of situations is a constant 
battle for us, as the service, to continually have that debate.
    And I think that is probably our biggest challenge. And I 
can't think of numbers two and three, right now, but the 
constant rock in our shoe is having that member take some 
personal responsibility in this role, because, ``It is never 
going to happen to you,'' that is the attitude, many a times, 
our young airmen think.
    Ms. Sanchez. Thank you, General.
    General Jones.
    General Jones. Ma'am, we have a similar process. Pre-
deployment, the soldiers are given the opportunity to update 
their emergency record forms. In addition, we have ongoing 
annual reviews, where soldiers are required to check their 
records. Any time a soldier changes a duty station, they are 
also required to update those records. That is where we catch 
them in our process, in order to keep those records updated.
    But at the end of the day, the soldier must let us know 
when those circumstances or beneficiaries change.
    Ms. Sanchez. Any other changes, or any other improvements 
you can make to the process?
    General Jones. Ma'am, we always continue to look at our 
procedures. One of the things that I spoke of a little bit 
earlier was that we are looking at adding additional 
information, or requesting additional information, as it 
concerns notification of my congressman if I get an award, if I 
become a casualty, if I am hospitalized.
    We are looking for improvements. And the record of 
emergency data is currently under review at the Department of 
Defense, and we are playing in that process.
    Ms. Sanchez. Mr. McLaughlin.
    Mr. McLaughlin. Well, we have a similar issue with making 
sure that the contact information is accurate for the members.
    Our situation is somewhat unique with the Navy. We normally 
have deployments that are expected and routine. Many of the 
people that we are deploying to theater that are not part of 
the fleet marine force are individual augmentees that go to 
support Army or Air Force units. And so going through that 
process of making sure that that information is updated and the 
whole family readiness piece is done is something that we have 
made significant improvements on.
    We do surveys of every family after we have had an 
experience with CACOs. We capture that data. We use that to 
improve our delivery of both notification and of the services 
that we provide to the family.
    The couple of examples where we have seen that we had to 
make improvement in our training is--understanding grief and 
grief recovery is one area that we have put some additional 
training, and then just more focus for the CACOs on the 
specific help as far as benefits, applying for benefits, tax 
implications and those kind of things that we want to provide 
adequate support to the family on those issues.
    Ms. Sanchez. Thank you.
    General Downs. Ms. Sanchez, we have found the procedures 
that have been in place for many years to be good ones.
    The problem with casualty notification is almost always a 
human issue, not a procedural issue. And the need for 
continuous training and education of not only the combat units 
that are originating reports but also for the CACOs who are 
delivering the information to the next of kin is under a 
continual review. And whenever we learn of something that might 
have a wider application beyond that specific case, we 
communicate that information in our training programs.
    We brief every organization as they prepare to go to the 
next deployment. We will go down there and brief right down to 
the battalion and S1 level that each unit is going to be 
deployed and to make sure that their responsibilities relative 
to casualty reporting are well-known and understood.
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman, for the time.
    Dr. Snyder. Thank you, Ms. Sanchez.
    General Jones, before I go to Mr. Hinchey, I am a little 
confused by your answer to Ms. Sanchez about the Tillman case.
    We are being deferential to you today because General 
Wallace has not come out with his final decisions. But the 
facts of the case are very clear. I mean, here is the published 
redacted inspector general published report March 26 of 2007 
for the Department of Defense. The IG has testified.
    Ms. Sanchez asked, ``Why was there a delay.'' I mean, 
surely you could have referred to this report and just read 
conclusions: ``Failed to initiate through the chain of command 
timely notification of the Army Safety Center CENTCOM suspected 
friendly fire in Corporal Tillman's death.''
    I mean, this obfuscation today when you have a published 
report--you could just refer the committee to the report.
    My understanding is the only thing that is left from 
General Wallace is, are individuals going to be disciplined or 
some administrative actions taken?
    The facts of the case are very clear now because your IG 
has published this report. And, I mean, it is a matter of 
public record.
    So I think that you could have been more forthcoming with 
Ms. Sanchez's question.
    And what it leads to is what she suggested. I won't be the 
chairman, but we may well need to have another hearing 
specifically on that case if that is going to be the attitude.
    This committee is not about sensationalizing these cases. 
We want to get it right, like you do. But that was not a very 
forthcoming answer.
    We have been joined by Mr. Hinchey, who is not a member of 
the House Armed Services Committee. He has asked to participate 
in this hearing if he might, because he has a constituent who 
he may describe for us. And I would ask unanimous consent that 
Mr. Hinchey be allowed to participate.
    Mr. Hinchey, we follow the five-minute rule here. You need 
to understand this.
    So he will be recognized for five minutes. But we are going 
to go around again.
    Mr. Hinchey.
    Mr. Hinchey. I have been observing how strict you are to 
the five-minute rule, Mr. Chairman. [Laughter.]
    Thank you very, very much.
    And I appreciate the opportunity to be here because I think 
it is a very important issue that----
    Dr. Snyder. Maurice, if you turn your mike on there, it has 
the button----
    Mr. Hinchey. Yes. It is on.
    Dr. Snyder. And then pull it right up close to you.
    Mr. Hinchey. Okay.
    Dr. Snyder. We have, kind of, an archaic sound system.
    Mr. Hinchey. Gentlemen, I want to thank you very much for 
being here. And I very much appreciate the opportunity to be 
part of this committee operation today, and to have the 
opportunity to engage with you in this discussion.
    I would like to ask you if I could focus attention on a 
specific issue involving a very specific military person. He is 
a sergeant in the Marine Corps--and I think my question should 
be addressed to General Downs--sergeant in the Marine Corps.
    Sergeant Eddie Ryan, does that name mean anything to you?
    General Downs. It certainly does.
    Mr. Hinchey. The situation that we are confronting here 
is--well, let me just give it to you in the base of my 
experience over the course of the last several years.
    On April 13th of 2005, Sergeant Ryan was wounded, shot in 
the head twice. And I believe it was machine-gun fire at the 
time. His family was notified immediately. That same day, they 
were notified that he had been wounded.
    Over a period of time, his family went to Germany, when he 
was there receiving medical aid. Then he came to Bethesda. Then 
he was shipped to Richmond, and then up to Helen Hayes Hospital 
in New York. The quality of the treatment varied from place to 
place quite remarkably. Now he is home.
    But the major issues, initially, were the ways in which the 
family was notified of the circumstances. After he was wounded, 
and some period of time went by, the family contacted my office 
and asked why it was that he did not receive the Purple Heart 
because of his wound.
    And after a period of inquiry which went on for some time, 
it was finally revealed on September 13th of 2005, 119 days 
after he was first shot, that it was the result of friendly 
fire, and that there was some question as to whether or not the 
Purple Heart would be awarded. It eventually was awarded, 
interestingly.
    But my initial question is, is that typical? Why was it so 
long? Why did it take so long for the family to be notified of 
the exact circumstances, when initially it was indicated that 
it was a hostile action but about a month later, based upon the 
information that we received later on, a month later there was 
a determination that it was not hostile fire, it was friendly 
fire? But the family wasn't notified until five months later.
    Can you give us some information as to how that process 
evolved, General?
    General Downs. I think I can, Mr. Congressman.
    As you indicated, the incident involving Sergeant Ryan was 
on the 13th of April. The unit suspected that this was a 
friendly fire incident and an investigation was initiated 
either the 13th or the 14th of April.
    That investigation was completed at the unit level and 
forwarded to the division commander, who made a determination 
and validated the recommendation or the judgment of the 
investigation that this in fact was a friendly fire incident. 
And that took place on 16th of May. On the 17th of May, a 
supplemental personnel casualty report was submitted.
    Regrettably, the information relative to the friendly fire 
was in a remarks element of the PCR and not in the appropriate 
spot. That is not an excuse, it is just a fact.
    There is no question that both the chain of command and our 
casualty section at Headquarters Marine Corps should have been 
readily aware on that particular day, the 17th of May, that 
this had been changed from an enemy action to friendly fire. 
And the family should have been notified on that date.
    That wasn't observed or wasn't picked up at the casualty 
section. And, in fact, as you indicated, the first that the 
CACO came to know that this in fact was a friendly fire 
incident was when he queried the promotion board relative to 
the Purple Heart.
    The dates are a little bit different. That was on the 27th 
of July, according to our records, and on that date Chief 
Warrant Officer Smulta, who was the CACO in this case, informed 
the family. On the 4th of August, according to our record, 
Chief Warrant Officer Smulta delivered the May 17th 
supplemental personnel casualty report to the family.
    The investigation then went through its process and is not 
releasable until approved by the Central Command. And that was 
sometime later. And it wasn't until February of 2006 when 
officers personally visited the Ryan family and discussed the 
redacted investigation report with them.
    So what is the problem for us is the delay between the 17th 
of May and the 27th of July. And that is a human error problem. 
It should not have occurred, and it certainly wasn't anything 
to deprive the family of the most updated information that they 
deserve.
    The unit itself initiated the investigation on the day of 
or the day after the incident. So certainly there was 
acknowledgement at the local command level that this was very 
likely a friendly fire versus hostile action.
    Dr. Snyder. Mr. Hinchey, I am next up. We will start the 
clock again, and I will yield my time to you. So continue.
    Mr. Hinchey. Thank you, Mr. Chairman.
    Well, I fully appreciate the different circumstances that 
the military has to operate there. Engaged in a military 
occupation like this is a very awkward and very difficult set 
of circumstances. So I don't place any blame on anybody, and I 
can understand how things like this can happen.
    But the information that we have varies, and I would ask if 
you would kindly look into this with a little more detail. 
Because our close analysis of this--in fact, I was with the 
family on Monday of this week and visited with Eddie Ryan, 
spent some time with him on Monday morning of this week. So we 
have paid a lot of attention to this.
    The information we have that the family never received 
anything on August 14th, that it was not until September 13th 
that they finally received the information.
    And I would just ask if you would kindly look into that and 
see what the real numbers are here, when it all took place. 
Because there is a lot of ambiguity attached to the situation, 
which I think is not useful and not good and it can be 
straightened out.
    There is a whole host of other things involved here, and I 
think that perhaps what I would like to do is communicate these 
to you in writing and ask if you would kindly look into them.
    What they are involves the whole situation there, where 
this incident took place, the fact that you didn't have the 
Kevlar helmets on and we are told that that is unusual. On the 
other hand, we are told by people who are actively involved in 
this sniper situation that wearing the Kevlar helmets is not 
something that they do when they are out there engaged in these 
kinds of practices.
    There are questions about the information as to where this 
particular operation was under Sergeant Ryan at that particular 
time. We have information indicating that the headquarters or 
the leaders thought that they were four blocks away.
    A whole host of things like that causes a great deal of 
concern with regard to the potential, perhaps even the 
likelihood, of these kinds of friendly fire incidents occurring 
more often. And we certainly don't want that to happen.
    So, if you don't mind, I will communicate with you and ask 
if you would look into this in some detail, as to how this 
situation evolved, what the exact set of facts and 
circumstances were.
    Because there is a whole host of things on which there is 
conflicting information coming back and forth. And that 
conflicting information is based upon the reports received and 
the actual experience of the Marines involved, not just Eddie 
Ryan, particularly him, but others who were involved with him, 
and of course his family and the family of others.
    Another issue that we have raised is the issue of a 
potential awarding of the Bronze Star to the Marines who were 
with Eddie Ryan when he received those wounds, because the 
actions that were taken seemed, obviously, to have saved his 
life. And the way in which those Marines operated, endangering 
themselves in that process, may entitle them to get that kind 
of attention that is provided with the awarding of that Bronze 
Star.
    And I would ask if you would kindly help us, looking into 
that, if there is some way that you could communicate that and 
perhaps follow through on it.
    And I would be happy to hear anything that you might be 
willing to say at this point, General.
    General Downs. I am familiar with correspondence that has 
transpired between the Marine Corps and the Ryan family, and 
even some correspondence from the Marine Corps and the 
secretary of the Navy and you and other Members of Congress.
    And, you know, at this stage, all I know is what I read. 
And, I mean, clearly there is a different view as to whether or 
not specific medals are warranted for the actions of the 
individuals who were on the roof with Sergeant Ryan on the 13th 
of April.
    The determination has been made at this state by the 
commanders involved, who are the ones that initiate award 
recommendations, that the actions didn't warrant it. That is 
not to suggest that there haven't been other awards, an award 
issued to one of those Marines and another one that I 
understand is still in process that involves their action for a 
much wider period of time in Iraq, but not specifically 
associated with the date of 13th of April.
    But I would be happy to see exactly what your questions 
are, Mr. Hinchey, and do our level best to respond to them.
    [The information referred to can be found in the Appendix 
beginning on page 90.]
    Mr. Hinchey. General, is it appropriate for me to ask these 
questions of you?
    General Downs. Well, I am representing the Marine Corps 
today so it is appropriate. And I might not necessarily have 
the answers directly, but I will try to answer what I can, what 
I know from my discussions with others within the Marine Corps 
leadership and what I have read.
    I have seen the redacted report. I didn't see the 
unredacted report. That is the report that really gets to what 
in fact occurred on that particular day in what area of Iraq. 
And that report has been forwarded through CENTCOM and 
decisions have been made on the opinions, findings and 
recommendations of the report. So that is the official 
Department of Defense position on what occurred that day.
    I know that an officer from Headquarters Marine Corps 
personally visited with the Ryan family and delivered that 
report. I clearly wasn't present, so I don't know the 
interchange of discussion or the relative satisfaction that the 
family had.
    But that is what we would end up going back to, is what 
does the investigative report say and what were the findings, 
conclusions and recommendations?
    Dr. Snyder. Mr. Hinchey, we will go to Mr. McHugh, and we 
will come around again----
    Mr. Hinchey. I thank you very much, gentlemen.
    Dr. Snyder [continuing]. And you as well as other members 
will have an opportunity to give questions for the record. But 
we will go around.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Mr. McLaughlin, I believe I heard you state in a response 
to an earlier question about DOD standards that, in your words, 
``Notification standards are consistent across the services.'' 
Is that accurate? Did I hear you correctly?
    Mr. McLaughlin. Yes, sir.
    Mr. McHugh. Can you help me understand which standards, 
both in practice and in regulation, are consistent?
    Mr. McLaughlin. Sir, I was referring to DOD Instruction 
1300.18.
    Mr. McHugh. And I am assuming along with it--is that the 
two-point standard that tells you what to investigate and under 
what circumstances?
    Mr. McLaughlin. Sir, those are the standards for 
notification of next of kin.
    Mr. McHugh. Well, I don't have those right in front of me. 
You want to read those to me?
    Mr. McLaughlin. I don't have the full instruction in front 
of me. I can get it to you for the record.
    Mr. McHugh. Okay. All right. That is fine. We can get 
those.
    Mr. McLaughlin. Yes, sir.
    Mr. McHugh. General Jones, at what point in the process 
does the Army notify the family that their notification 
previously of deceased by hostile fire is now under 
investigation or has been found to be possible friendly fire?
    General Jones. Sir, as soon as that information is made 
known to us, we redispatched the casualty assistance officer--
--
    Mr. McHugh. As soon as what information, that it is under 
investigation or that the investigation has found that or what?
    General Jones. Sir, as soon as we get information that the 
case is under investigation or that the situation is unknown, 
we will inform the family of that.
    Mr. McHugh. General Downs, when does the Marine Corps 
notify that a previous friendly fire report to the family is 
now suspected hostile fire?
    General Downs. The timeline on the----
    Mr. McHugh. You are right. I had it the other way around.
    General Downs. Yes, sir.
    Mr. McHugh. Forgive me. I am dyslexic this morning, but I 
hope you get my drift.
    General Downs. Yes, sir. Well, the gap on the official 
report between the initial report of hostile fire on the 13th 
of April and the determination after investigation conducted at 
the unit that, in fact, this was friendly fire, was a month and 
four days.
    Mr. McHugh. No, I am not speaking of a specific case. I am 
asking what your policy is.
    General Downs. The policy is, as soon as a determination is 
made that it is friendly fire, that a supplemental casualty 
report be submitted and that the CACO be notified and the 
family be notified.
    Mr. McHugh. So, unlike the Army, that the moment they have 
a suspicion an investigation has begun, you wait until it has 
concluded.
    General Downs. We wait until there is a conclusion. This is 
not for the whole investigation to have taken place.
    Now, having said that, in the incident of 2003, that was a 
long, long process before a determination was made, and we, 
through the CACOs, did notify families as we went along that 
there was a strong suspicion that this was a friendly fire 
incident.
    Mr. McHugh. General, that is interesting, but I am not 
talking about that specific case, sir. I am trying to 
understand what the policy is across the board. I understand 
people and circumstances change. I am trying to understand what 
your policy is.
    General Downs. The policy, sir, is as soon as a personnel 
causality report is modified to indicate friendly fire, which 
is as soon as the command in contact has made that 
determination, then we notify the family.
    Mr. McHugh. How long does that normally take?
    General Downs. Well, it took----
    Mr. McHugh. And I am not talking about that one case. 
Normally.
    General Downs. Sir, we only have 2 cases to reference, and 
the most recent 1, in 2005, took 1 month and 4 days, sir.
    Mr. McHugh. Which is beyond the legal standard.
    My point is we don't really have a consistent policy. I 
understand there may be a need, whether it is by culture or 
whether it is by reality of how a particular service is 
discharging its responsibilities in a particular combat zone. 
But if you look at how the services do this, there is a great 
discrepancy as to who conducts investigations, when family 
notifications occur.
    We have in law since 1993 that every family should be 
notified when the circumstances change from hostile fire to 
suspected friendly fire, that you had to be notified in 30 
days.
    I don't see how you can wait until the end of the 
investigation process normally, and you only have two reported 
cases.
    But 30-day standard just is very difficult to meet in that. 
And I am curious why we wait so long until that circumstance, 
rather than letting these families know.
    And it may be that, going back now to this specific case of 
Ryan, that indeed the standard that you employ was a big part 
of the problem, because it took you so long to do it. Maybe it 
was necessary to do it. But that is why there was that huge 
gap.
    That is my problem. I am trying to understand if the 
standards starting at DOD and then they are interpreted down 
into the services are consistent enough to provide a 
reliability to families.
    I don't know the answer to that. I am not trying to play 
district attorney here, a prosecuting attorney, but I think we 
have got to better understand how the services need to work 
differently and where they don't so we have got a consistent 
policy so everyone is more clear in a very important 
circumstance.
    With that, Mr. Chairman, my time has expired.
    Dr. Snyder. Thank you, Mr. McHugh. I appreciate your 
comments and share your concerns.
    Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I wanted to go back to the question that I asked at the 
last of my time, which was how you integrate the 
investigations. If there is a multiple service involvement, 
where does it start? Does it start with the service in which 
the individual was serving who was killed? How does that come 
together?
    And if you could share with us, what are some problems that 
you found in working that investigation? And how have you 
attempted to solve those?
    General Przybyslawski. Ma'am, it still boils down to a 
service responsibility for the casualty notification, 
regardless of what the member was engaged in, if it was with 
other services side by side.
    So if there is a casualty across service lines, to include 
the Reserve and Guard, it still is a service responsibility to 
manage the notification process. And that is how the Air Force 
treats it.
    So, we see no difference in that, what the situation was 
with the other members involved in it.
    And then, on top of that, the investigation, there will be 
a single appointed senior officer to investigate the 
circumstances that would reach into all the other services for 
that investigation.
    Mrs. Davis of California. Are there some differences when 
that information is quite fuzzy, at least initially, in terms 
of who is responsible?
    General Przybyslawski. The Air Force has not experienced 
that.
    Mrs. Davis of California. Can you share with me other 
instances, General Jones?
    General Jones. Ma'am, to get to your integration and review 
part of it, if I could, quickly, once we get our casualty and 
our investigation reports back here to Alexandria, we reconcile 
both an in-depth investigation report and the casualty reports. 
And if we see differences, there could be need for us to go 
back and ask for additional information.
    But I agree with the Air Force that the commander on the 
ground leads that charge and the services then take on that 
notification process.
    Mrs. Davis of California. Any other problems that you have 
seen? Because it would appear that often there would be some 
conflict in following up on that information, particularly not 
even knowing where the fire was coming from.
    Not a problem. That is part of the overall investigation 
process.
    General Jones. Yes.
    Mrs. Davis of California. And is there ever a problem, of 
then, the chain of command, of who notifies, once the 
investigation is done, then it just goes back through the 
appropriate service?
    General Jones. Yes, ma'am.
    Mrs. Davis of California. Are some those incidents ones 
where there seems to be this extraordinary delay in the 
families getting that updated information?
    In addition to the Tillman case, of course there are 
others. The Ryan case was mentioned. There are other cases in 
which there seems to be this rather extraordinary delay in 
getting that information. And I am wondering, are those 
incidences where there is multiple services that are more 
likely to be involved, that the delay would occur?
    General Jones. Ma'am, I am not aware of any delays in our 
processes of getting information on Army soldiers.
    Mrs. Davis of California. No delays in terms of getting 
that information to families?
    General Jones. Correct, ma'am.
    Mrs. Davis of California. I think that is what we are 
grappling with here, because there seems to be some significant 
delays of getting that information from the time that the 
casualty reports went out, and having that supplementary 
information.
    So that is a concern. And I don't want to go through all 
the details of those different reports, but it seems that that 
certainly is a concern that that is out there.
    Well, Mr. Chairman, I think that I will just turn it back.
    I think that the other issue really is whether you are 
aware, in any cases, whether there is any other involvement--
and that would be a political involvement in any way, whether 
it is a Member of Congress, whether a member of the executive--
that you are aware of that intervenes in trying to get that 
information.
    And whether or not you are aware of that, I am not certain, 
but are you aware of incidents where there is some involvement 
in terms of people trying to get that information other than 
the families, perhaps? And is that dealt with in any different 
way?
    General Jones. Ma'am, in the Army, when we get requests for 
information that is not the family or the person directed to 
take care of that soldier's estate, we refer them to our public 
affairs officer, to where they can get the information that is 
available and releasable. So we work with all agencies, but we 
do that part through our public affairs officers.
    Mrs. Davis of California. Would that be true of the 
executive branch as well?
    General Jones. Ma'am, we answer all of our inquiries in an 
expeditious manner, and we will cross-check all of it. But we 
do answer concerns fully when we are asked.
    Mrs. Davis of California. Thank you, Mr. Chair.
    Dr. Snyder. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    General Jones, I am going to ask you again: How can Army 
families be assured that in the future they won't have to wait 
the 35 to 37 days that it took to notify the Tillman family 
that friendly fire was suspected?
    General Jones. Well, ma'am, I think that by the training 
that we have invested in this process as a result of this and 
other incidents, and ensuring that commanders know the 
seriousness of reporting information accurately, I think we can 
take a huge step--and we have--at preventing these accidents 
from occurring again.
    Ms. Sanchez. General, why would you let the Tillman family 
bury their son knowing that he had been hit by friendly fire? 
Why didn't you tell them the truth? Why didn't the Army tell 
them the truth before the family buried him under other 
circumstances?
    General Jones. Ma'am, on the information that comes through 
the casualty operations center, we provided the information 
that we were aware of at that time.
    And on the 22nd of June, we got that initial casualty 
report on Corporal Tillman. So as soon as we got the 
information that was contained in the report and it was 
verified, we in fact told the family what we knew at that time.
    But since then, as you are aware, ma'am, we have since gone 
out, we conducted a family briefing to the family on the 16th 
of June, to tell them new information that had arrived and had 
come to our knowledge through our casualty operation channels.
    Ms. Sanchez. So I am getting confused on the timing. So you 
are saying that you briefed the family before they buried their 
son, that you knew that he had been hit by friendly fire?
    General Jones. No, ma'am. No, ma'am.
    Ms. Sanchez. But you did know?
    General Jones. Ma'am, what was available----
    Ms. Sanchez. The Army did know----
    General Jones. What was available----
    Ms. Sanchez [continuing]. That Mr. Tillman had been hit by 
friendly fire?
    General Jones. Ma'am, I think it is fair to say that there 
were individuals who knew that something tragic had occurred. 
But that information had not been sent, via casualty report, to 
our operations so that we could properly notify the family of 
what we knew when.
    Ms. Sanchez. So what is the process in place now to get 
that information to family before they bury their son under the 
wrong circumstances?
    General Jones. Ma'am, what we do is, if it is suspected 
that friendly fire is the resulting force, we will let that 
family know that right away, when we notify them, that the 
circumstances are under investigation or they are unknown.
    If at any time that that changes, we immediately dispatch 
the casualty assistance officer back to the family to inform 
them that information has changed or new evidence has become 
available to our knowledge. And we do that as quickly as we can 
contact that officer who is working with the family.
    Ms. Sanchez. So what is the area or the specialization that 
contacts them? How close is that?
    Let's say somebody reports back from the field 15 days 
later or something that, you know, in fact, Tillman was killed 
by friendly fire. Then you are telling me there was this long 
gap in which somebody buried their son, and after you found 
out, because the people that notify the family didn't find out 
until over here, but we knew in the Pentagon way ahead of time 
that he had been killed by friendly fire.
    So what have you done between this gap, this person and 
this person, to close that gap? That is my question.
    General Jones. Ma'am, what we have done is demand the same 
speed and care for any casualty information, but particularly 
with friendly fire.
    If you suspect it or if there is new information, we want 
the family to know first. We take great care when dealing with 
this and all casualty matters that when we know something and 
then it is verified, ma'am, we do our darndest to get out there 
as quickly as possible to let the family know so that they do 
not find out from any other means.
    Ms. Sanchez. Was that the policy before Mr. Tillman's 
situation, or is that the new policy since his situation? Be 
careful how you answer this.
    General Jones. Ma'am, the policy at the time was to always 
notify the family of information that we have as soon as it is 
verified. So that policy is still intact.
    The new sense of urgency, however, is a new policy that I 
have in this training aid that we now give to all of our 
leaders to ensure that they are aware of that sensitivity.
    Ms. Sanchez. And, last, General, would you say that 
somebody in the Pentagon who knew and who purposely withheld 
the information on Mr. Tillman to notify his family ahead of 
his burial would therefore have been going against DOD policy?
    General Jones. Ma'am, if there was someone in the Pentagon 
that had information and they would have provided that verified 
information to my office, we would have sent out a 
notification, a renotification to the family as soon as we knew 
about it.
    Ms. Sanchez. Let me restate the question again. If somebody 
who was in the Pentagon knew and purposely withheld that 
information from your office, even though the policy is to get 
it to you as soon as possible and get it to the family before 
they bury their son, would they be subject to some sort of 
criminal act?
    General Jones. Ma'am, I am not certain the areas of the law 
that would deal with that. But it surely would upset me if I 
was a parent--and I am a parent of a soldier who has been 
deployed five times in defense of our country. And if any 
information on him was withheld from anyone by anyone, I would 
be truly upset with the Army and those involved.
    And this operation, I am truly upset at that, that we don't 
get information, accurate information, timely to our office so 
that we can keep that promise to the family that we won't leave 
them behind.
    And that is our obligation, ma'am. And we work pretty hard 
at getting it right. And families are telling us that they are 
satisfied and we are getting things right. But in this 
business, things do occur. The human element gets involved. 
Policies are there.
    But, ma'am, I can assure you that any information that 
comes into the gates of our office is communicated to the 
family as quickly as humanly possible.
    If we are concerned that it will get there by any other 
means, we will telephonically call.
    Ms. Sanchez. Thank you, General.
    Thank you, Mr. Chairman.
    Dr. Snyder. General Downs, I had several questions I wanted 
to ask you.
    You have stated both here today and in your written 
statement that there have been 2 incidents, 1 in which 18 
Marines were killed, and the case that Mr. Hinchey and you 
discussed, in which a man was wounded. So 2 incidents involving 
a total of 19 people.
    How many families have been notified that there were 
ongoing investigations to determine what occurred that then 
turned out the final conclusion was that it was not a friendly 
fire incident?
    General Downs. I believe none, Mr. Congressman, because we 
wouldn't tell the family if the command didn't have a strong 
indication that it was a friendly fire incident, and when they 
did then they are mandated to modify the personnel casualty 
report.
    That is the document, the official notification document 
that we use to notify the families so that when the information 
is provided it is direct information.
    Dr. Snyder. Does the PCR say ``strong indication'' or does 
it say ``suspected''? This is getting back to this terminology 
again. You just used the phrase ``strong indication.''
    General Downs. It was nothing magic about my use of words. 
It was just what came out.
    All I can do is recall the one that I have read. And that 
one specifically stated that the determination was made that 
this was a friendly fire incident.
    Dr. Snyder. I share Mr. McHugh's concern about the lack of 
uniformity and will have some comments when we close about 
that.
    But when you were asked earlier, I think by Mr. McHugh or 
Ms. Davis, about why you don't investigate all hostile 
incidents like the Army currently does, I think your comment 
was, ``Well, it is a waste of time when you know what happened 
with an IED.''
    But two comments about that. That kind of investigation--a 
vehicle going along, an IED goes off--obviously that would be a 
very rapidly performed investigation.
    I can also give you hypotheticals involving IEDs that 
probably warrant an investigation in terms of what it might 
mean for safety. For example, a foot patrol in which there is 
an IED, and there may be an indication that procedures weren't 
followed in which you had a group of young men or young men and 
women standing around looking at something out of curiosity 
when in fact they should have followed protocol, which is you 
get back away from that thing until that is taken care of to 
minimize the risk of the kind of casualties.
    In fact, I have seen video of a young officer going over 
and looking at one of these because he wanted to see what it 
looked like. That may be the kind of thing that these men and 
women have to do in their bravery and courage. It also may be 
the kind of thing that once you know you have got an IED, you 
stay the hell away from it to avoid casualties.
    So there may be some benefit of following what the Army is 
doing, investigating all incidents involving hostile fire. So I 
would not be so quick to be dismissive of saying it somehow is 
a waste of time. If it is taking too long to do that kind of 
investigation when it is pretty clear what occurred, then, you 
know, figure out ways to expedite the investigation. But we may 
avoid some of these questions.
    I wanted to ask you--and I don't have the answer here, but 
the staff and I are, and I think other members, are going to 
pursue this. You have a long history involvement with the 
military, both in and out of service. Does the fact that there 
have only been 2 confirmed incidents of friendly fire, 1 a very 
dramatic 1 involving 18 deaths and then the second 1 involving 
young Mr. Ryan that was a very serious injury for him, but does 
the fact that there have been only 2 confirmed incidents of 
friendly fire, does that cause you, or anyone senior to you, to 
step back and say that perhaps our system not turning up every 
incident, given the length of the war, the great involvement of 
the Marine Corps in some very difficult fighting from the early 
days of the war, and you only have 2 confirmed incidents of 
friendly fire?
    General Downs. Well, in order to respond to that, I would 
have to question the performance of duty of individuals that 
knew something to occur or suspected something to occur that 
didn't follow the mandate to amend personal casualty reports. 
And I am not prepared to do that. I haven't been over there, 
and I just wouldn't idly question the integrity or performance 
of----
    Dr. Snyder. I mean, you are very much aware that the Army 
went back and reviewed a lot of cases and found incidents in 
which they have had to adjust those conclusions based on the 
facts that have come out about other cases.
    General Downs. I guess also, Mr. Chairman, I found that if 
somebody is suppressing bad news, they don't get to do it 
forever. There are too many individuals involved and it 
sometimes takes time, but bad news surfaces.
    And we are not involved in all the operational discussions 
by a long shot in my office. We are involved in casualty 
notification and care. And I, until this hearing, hadn't had 
that issue bubble up.
    Dr. Snyder. The bad news is more likely to surface in a 
timely fashion if investigations are done. If they are not 
done, it may not.
    Mr. McHugh, do you have further questions? Go ahead.
    Mr. McHugh. Yes, I rather offhandedly threw out a legal 
requirement, and I am just curious. This is not under Title 10. 
It is part of the 1993 Defense Authorization bill, which is 
law. It is signed by the President.
    And it was done in response, as I noted in my opening 
statement, to similar circumstances that were being 
demonstrated after the first Iraq war.
    And I want to read this Section 1072 requirement: ``The 
secretary of each military department shall ensure that 
fatality reports and records pertaining to any member of the 
armed forces who dies in the line of duty shall be made 
available to family members of the service members in 
accordance with this subsection.
    ``Number two, information be provided after notification of 
death. Within a reasonable period of time after family members 
of the service member are notified of the member's death, but 
not more than 30 days after the date of notification, the 
secretary concerned shall ensure that the family members''--and 
there is a list of things, but the first one is ``in any case 
in which the cause or circumstances surrounding the death are 
under investigation are informed of that fact, of the names of 
the agencies within the Department of Defense conducting the 
investigations and of the existence of any reports by such 
agencies that have been or will be issued as a result of the 
investigations.''
    That is current law.
    I want to go right down the line. General, are you aware of 
that law? And, if so, how do you comport with it?
    General Przybyslawski. Sir, I totally agree with that.
    One of the things I misspoke about earlier is that since 
2004 and we instituted that policy, the OSI, our investigative 
arm, does investigate every hostile incident that results in 
death. So that is true. We do do that.
    Mr. McHugh. So when it goes from a potential hostile fire 
to friendly fire, you notify and report to those families?
    General Przybyslawski. Yes, sir. Our timelines are 
codified. The letter of circumstance, which is the tool we use 
to the family members on the opening of investigation is within 
five days of notification of the incident.
    Within 72 hours of the OSI opening up an investigation, a 
point of contact is assigned from the OSI to the family member 
to keep them posted on the information of that. So very quick 
notice.
    Mr. McHugh. Okay. Thank you.
    General Jones.
    General Jones. Sir, we are in compliance with that. And we 
do offer the family those documents immediately following the 
interment of the soldier. And we walk it through the system to 
ensure that they get those reports that they need as quickly as 
possible.
    Mr. McHugh. Based on your earlier response to my question, 
you notify the family the minute a suspicion of friendly fire 
involvement becomes known.
    General Jones. Yes, sir.
    Mr. McHugh. Mr. McLaughlin.
    Mr. McLaughlin. Yes, sir. If I could refer back to my 
opening statement, we notify the family that an investigation 
is being conducted when we have become aware of that factual 
information. At the time that the outcome of those 
investigations are available, we would notify the family and 
assist them in getting a copy of the investigation.
    General Downs. Yes, sir. We are aware of Section 1072. In 
listening to the reading of it that you just made, clearly we 
need to take a look at the issue of ``under investigation'' and 
to ensure that combatant commanders or those involved put in a 
modified personnel casualty report at an earlier time than 
waiting for an investigation to be complete.
    Mr. McHugh. Great. I agree totally. Great answer.
    Would it be helpful, gentlemen--you know, we take great 
pride in the National Defense Authorization Acts that we pass 
each year, particularly in this Personnel Subcommittee.
    But would it be more helpful, more prominent, send a clear 
message if we were to change it in the Title 10? Does that get 
a better read? I mean, you are all well-prepared to answer this 
question. I commend you for that, but that is not my point.
    Any thoughts?
    General Downs. The existence of this particular requirement 
is well-known. It is an issue of 100 percent adherence, sir.
    Mr. McHugh. Okay. I don't see any disagreement.
    So with that, Mr. Chairman, time is up, and I will yield 
back. Thank you.
    Dr. Snyder. Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I know you have all attempted to answer our questions, and 
I think there will be some follow-up for the record. But within 
the issues that we just discussed in terms of notice, is there 
any discretion on the part of the combatant commander that 
causes concern or is clear enough?
    You know, there is some discretion there, I would assume. I 
mean, there has to be. Is there any part of that that should be 
tightened, loosened, changed, to any extent that we ought to 
follow up on?
    General Przybyslawski. Ma'am, I would have to say that the 
commander has the full responsibility to be able to make the 
call based on the judgment. And he is accountable to a lot more 
people than anyone. And if he messes this up, or she messes 
this up, it becomes very obvious.
    Mrs. Davis of California. Have any commanders ever been 
held accountable for that, to your knowledge?
    General Jones. Ma'am, the combatant commander is ultimately 
responsible. And he approves, personally approves, the 
investigation report.
    Mrs. Davis of California. Where there have been some 
problems, though, have any combatant commanders been held 
accountable?
    General Jones. Ma'am, I am not aware. Since we initiated 
our new policy, they have all complied.
    Mrs. Davis of California. Okay. Thank you very much. And I 
hope you understand our questions are to try and understand 
this so that our constituents have also a clear understanding 
of the process involved. Thank you very much.
    Thank you.
    Dr. Snyder. We appreciate you all being here.
    We don't have any further questions, but I have to be 
candid. This is my last hearing as the subcommittee chair, but 
despite what Mr. McHugh said, I am not leaving the 
subcommittee. I am going to be sitting right here next to Ms. 
Davis.
    But I found this an unsatisfactory experience today. And we 
are going to spend some time with the staff and Ms. Davis to 
try to figure out why that is. I thought this would be much 
more crisper and clear cut, more uniform. But I have uneasiness 
about this process that I hope can be dispelled.
    And I am sure members are going to have questions for the 
record. It may be that we are going to have some briefings. We 
will bring some folks over to try to clarify where some of us 
have some uneasiness about this.
    Ms. Davis may decide that she wants to have another hearing 
on this. I may decide, as the chairman of our Oversight 
Investigations, we need to have another hearing.
    But we have got some uneasiness about this, this process 
which I, frankly, had thought would be dispelled by this 
hearing today, that we would have learned over the last several 
years the importance of having a very clear-cut process that 
can be laid out probably with more uniformity, so the American 
people can have an expectation that all the families are going 
to be treated the same way.
    And that doesn't seem to be the case. They may all be 
treated fairly, but they clearly are not all being treated the 
same way in terms of what information they are getting, because 
it varies from service to service.
    But we appreciate you all being here today.
    And the committee is adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]

=======================================================================




                            A P P E N D I X

                             June 27, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 27, 2007

=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             June 27, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. When can we anticipate seeing the final results 
of the Tillman case? I am not asking you to comment on any 
details about what is in the report. I am asking you, when can 
we anticipate, or do you have an idea when we can anticipate 
when it will be made public what the results are?
    General Jones. The results of the General Wallace's review 
of the evidence supporting the Department of Defense Inspector 
General's Report were released to the public on July 31, 2007.
                                ------                                


                   QUESTIONS SUBMITTED BY MR. MCHUGH

    Mr. McHugh. What is the figure for the total Army since 
what we define as the beginning of the global war on terror, 
September 11, 2001?
    I want to redefine so you understand. How many cases 
originally reported as hostile fire in that entire period 
actually turned out to be friendly fire?
    General Jones. The Army classifies friendly fire incidents 
as hostile incidents because they occur either while the 
friendly force is in contact with the enemy, or believes itself 
to be in contact with the enemy. The key distinction with 
friendly fire incidents is in the identification of the 
inflicting force. For hostile incidents, the casualty report 
requires the reporting unit to identify the inflicting force 
either as ``enemy,'' ``U.S.,'' ``allied,'' or ``unknown.'' 
Whenever the inflicting force reported as anything other than 
``enemy,'' the Family is notified that the death is a possible 
or suspected friendly fire and that an investigation has been 
initiated to determine the cause. These investigations will 
provide detailed circumstances concerning their loved one's 
death.
    Since September 11, 2001, the Army has identified 38 
friendly fire deaths involving 30 separate incidents. Of that 
number, 19 deaths involving 14 incidents were reported as 
suspected friendly fire in the initial casualty report. For the 
remaining 19 deaths involving the other 16 incidents, the 
initial casualty report reflected the inflicting force as 
``enemy.'' In those 19 cases, information obtained from the 
unit investigation that is required by Army regulations or 
information obtained from the Armed Forces Medical Examiners' 
forensic investigation was the catalyst for units to submit a 
supplemental casualty report changing the inflicting force to 
``U.S.,'' ``allied,'' or ``unknown.''
    Mr. McHugh. Notification standards are consistent across 
the services. Can you help me understand which standards, both 
in practice and in regulation, are consistent?
    I am assuming along with it--is that the two-point standard 
that tells you what to investigate and under what 
circumstances?
    Mr. McLaughlin. Department of Defense Instruction (DODINST) 
1300.18, entitled ``Military Personnel Casualty Matters, 
Policies, and Procedures'' establishes uniform personnel 
policies and procedures, applicable to each of the military 
services, for notifying and assisting next of kin (NOK) 
whenever casualties are sustained by active duty military 
personnel.
    In the case of deceased, missing, and duty status 
whereabouts unknown (DUSTWUN) members, initial notification(s) 
shall be made in person to the primary NOK by a uniformed 
representative of the Military Service concerned, unless 
unusual circumstances prevent such procedures. Whenever a 
casualty occurs as the result of either a hostile action or 
terrorist activity, initial notification(s) shall also be made 
in person to parents who are the secondary NOK by a uniformed 
representative of the Military Service concerned, unless 
unusual circumstances prevent such procedures. When 
appropriate, a military chaplain shall accompany the uniformed 
representative on all initial notifications. If required, 
chaplain assistance from another branch of the Military 
,Service may be requested to provide timely and proper pastoral 
care. All facts and circumstances on the casualty incident, 
known at the time of the initial notification, shall be 
provided to the NOK. Care should be taken to ensure that no 
information that is offensive to the NOK, such as burial 
details and monetary provisions in a death case, be included in 
the initial notification. Whenever someone other than the 
member's commander or designated representative makes initial 
notification, an official notification confirmation to the NOK 
shall be made by telegraphic or written communication.
    In all cases involving deceased or missing casualties, the 
Military Service concerned shall appoint a casualty assistance 
representative who will contact the NOK within 24 hours 
following initial notification. The purpose of this contact is 
to establish a time to meet with the NOK that considers the 
needs of the family and honors the family's period of mourning 
to the extent possible in the best interest of the family. The 
representative, to the extent the NOK desires, shall provide 
guidance and assistance for such matters as military pay, 
allowances and benefits, veteran benefits, social security 
benefits, and income tax refunds or exclusions whenever Section 
692 of 26 U.S.C. (the Internal Revenue Code) applies to the 
particular case. Individuals serving in a casualty assistance 
role must be trained properly to ensure that every aspect of 
the case is treated in a sensitive and timely manner. The 
representative shall provide points of contact or information 
regarding autopsy reports, reports of inquiry or investigation, 
as applicable and other governmental or non-DoD Agencies that 
may be involved in a particular case. The representative shall 
maintain contact with the NOK to keep them informed regularly 
and currently on all matters relating to the case until the 
case has been resolved an all entitlements and benefits are 
received.
    In all casualty cases, the NOK shall be provided the 
circumstances surrounding the incident as best known to the 
Military Service concerned. In addition to preliminary 
information provided at the time of the initial notification, 
as additional information becomes available, the Military 
Service concerned shall inform the NOK. In cases involving a 
deceased or missing casualty, the member's commanding officer 
should provide an appropriate letter of sympathy, condolence, 
or circumstance to the NOK not later than five days after the 
initial notification, unless circumstances surrounding the 
incident indicate discretion is more appropriate. In the event 
a casualty occurs during a classified operation, all 
information of an unclassified nature shall be provided. Every 
effort shall be made to declassify information, particularly in 
those incidents in which a member is declared deceased or 
missing.
    Mr. McHugh. The House version of the National Defense 
Authorization Act for Fiscal Year 2008 mandates ratios for case 
managers, service member advocates and PEBLO personnel to 
service members undergoing outpatient treatment. How many 
additional personnel would the Army require for the Warrior 
Transition Units if the conference report includes the ratios 
in the House version?
    General Cody, General Pollock, General Schoomaker. The 
House version of the National Defense Authorization Act for 
fiscal Year 2008, HR 1585 would set the ratio of case managers 
to Wounded Warriors at 1:17. The Army Medical Action Plan 
(AMAP) calls for nurse case managers at a ratio of 1:18 
Warriors in Transition (WTs) at Army Medical Centers where the 
acuity of care required is high and to 1:36 at those Army 
treatment centers where the acuity is much lower. HR 1585 calls 
for service member advocates at a ratio of 1:30 WTs. The AMAP 
establishes that ratio at 1 ombudsman for every 200 WTs. The 
House version would establish the ratio for PEBLOs at 1:20, 
while the AMAP sets this ratio at 1:30. The difference in 
requirements between these two approaches is presented in Table 
1 below.
    Table 1 summarizes these differences which are based on a 
current WT population of 3,903 undergoing a Medical Evaluation 
Board (MEB) to calculate the PEBLO requirement, 7,189 WTs 
currently in WTUs to determine the ombudsman requirement, and a 
projected total capacity of approximately 8,000 WTs to project 
the case manager/nurse case manager requirements.

                                                     TABLE 1
----------------------------------------------------------------------------------------------------------------
                                                                      HR 1585
                           Position                                 Requirement      AMAP  Requirement    Delta
----------------------------------------------------------------------------------------------------------------
Case Manager/Nurse Case Manager                                               500                 345       155
----------------------------------------------------------------------------------------------------------------
PEBLO                                                                         195                 130        65
----------------------------------------------------------------------------------------------------------------
Advocate/Ombudsman                                                            240                  55       185
----------------------------------------------------------------------------------------------------------------
TOTAL                                                                         935                 530       405
----------------------------------------------------------------------------------------------------------------


    It should be noted that these numbers do not include the 
command and support positions required to staff all WTUs. The 
U.S. Army Medical Command established the number of medical 
unit personnel required according to the Army Medical Action 
Plan at 2408. It should be noted that this does not include the 
requirement to staff Community Based Health Care Organizations 
(CBHCOs) with nurse case managers (48) or other required CBHCO 
personnel.
                                ------                                


                   QUESTIONS SUBMITTED BY MRS. BOYDA

    Mrs. Boyda. What happens when we have a single parent and, 
you know, an infant or a minor is considered the next of kin, 
what do you do in that situation?
    General Downs. In accordance with both Department of 
Defense and Marine Corps policy, an assigned Casualty 
Assistance Calls Officer (CACO) notifies primary and secondary 
Next of Kin in person of the death. In situations where a minor 
child is involved, significant care and consideration is 
exercised to determine the exact situation of guardianship and 
making notification within that support structure. Should the 
child be the Primary Next of Kin, the designated legal guardian 
exercises the child's rights. In the past, there have been 
occasional cases where, because of State guardianship 
provisions, it was cumbersome for the legal guardian to access 
funds to support the minor child. New statutory provisions 
allow the Service member to designate portions of the Death 
Gratuity to other than the Primary Next of Kin have helped 
mitigate that issue.
                                ------                                


                   QUESTIONS SUBMITTED BY MR. MURPHY

    Mr. Murphy. Would it be helpful for the services to have a 
DOD-wide set of guidelines for policy and processes in these 
cases?
    Why should notification processes be different for friendly 
and hostile fire incidents?
    Do they get a copy of a redacted 15-6 investigation in all 
these type of cases?
    General Przybyslawski. Air Force Instruction 36-3002 
provides Air Force policy guidance and procedures for 
notification to next of kin on any ongoing investigations in 
accordance with DoD Instruction 1300.18, the governing DoD 
casualty instruction. The service member's commander informs 
the next of kin, to include parents, on circumstances 
surrounding the injury or death and any changes to previously 
provided information. Additionally, the next of kin are updated 
as more information becomes available. The base casualty 
assistance representative (CAR) providing assistance to the 
next of kin will request documentation by message from the 
appropriate agency. The CAR closest to the installation where 
the incident took place is responsible for obtaining and 
distributing the information. The family's CAR informs the 
family of their right to request a copy of all case 
documentation. In addition to the Airman's commander and the 
CAR, the Air Force Office of Special Investigations (OSI) has a 
Family Liaison Program designed to facilitate effective verbal 
and written communication with family members of any decedent 
whose fatality results in an OSI investigation. The Air Force 
OSI Detachment investigating the incident appoints a point of 
contact for the family. Within 72 hours of the family's initial 
notification of a casualty, the OSI liaison contacts the family 
to ensure they fully understand the Air Force OSI's role in the 
investigation of the death. The family is kept informed 
throughout the investigation on case development and new 
information. At the conclusion of the investigation, the OSI 
liaison will contact the Airman's family to set up a meeting to 
discuss the case. At this point the OSI liaison provides the 
family with a copy of the Freedom of Information Act request 
letter and explains how they may obtain a copy of the completed 
investigation report. The investigative case file must be 
closed and in the AFOSI file respository office before it can 
be processed in accordance with FOIA requirements.
                                ------                                


                   QUESTIONS SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. General Jones, How can the United States Army 
assure soldiers' families that they will not have to wait 35-37 
days, like the Tillman family did, to receive notification that 
friendly fire is suspected in the death of their loved one?
    General Jones. In the Corporal Tillman case, members of the 
unit responsible for reporting the suspected friendly fire and 
initiating the collateral investigation did not follow existing 
published Army policy and regulatory guidance. Since then, 
based on the results of subsequent investigations into the 
handling of this case, appropriate administrative actions have 
been taken against those involved in the failure to follow 
published Army policy.
    In the aftermath of the Corporal Tillman case, the Army has 
instituted several additional requirements involving casualty 
reporting and investigation procedures to further ensure that 
commanders know of their responsibility to accurately report 
the circumstances surrounding a casualty incident and to 
provide updated reports as soon as new information comes to 
light:
    These procedures are as follows:
    First, the battalion commander, or his battalion-level 
field grade designee, must verify the accuracy of the casualty 
circumstances and the inflicting force as well as sign the 
report before submitting the initial or supplemental casualty 
report through higher headquarters to the Army's Casualty and 
Mortuary Affairs Operations Center (CMAOC). As before, in those 
cases where the battalion commander identifies the inflicting 
force as ``U.S.,'' ``allied,'' or ``unknown'' on the casualty 
report, CMAOC will direct the casualty notification team to 
inform the Family that their Soldier was killed by possible or 
suspected friendly fire and that the unit has initiated an 
investigation to determine the facts surrounding the death. The 
Family is also informed that they will receive a copy of the 
final report of investigation.
    Second, the Army now requires commanders to investigate all 
hostile deaths under the provisions of Army Regulation 15-6 and 
to report initiation of that investigation through casualty 
reporting channels so the Family can be informed that an 
investigation is underway.
    Third, all Army units or agencies that conduct a death 
investigation must now provide a copy of the completed report 
to CMAOC. CMAOC then compares the results of the unit's 
investigation and any other completed investigation to the 
latest circumstances reported through casualty channels to 
ensure all information sources are consistent and that the 
Family has been provided with up-to-date information concerning 
the circumstances of their loved one's death.
    Finally, the Army's leadership communicates regularly--both 
formally and informally--with commanders in theater to ensure 
they understand that it is both published policy and their 
obligation as commanders to report a suspected friendly fire 
incident through both casualty and operational channels at the 
moment they first suspect it and not wait for completion of the 
investigation to submit updated information concerning the 
circumstances of such incidents.
    Ms. Sanchez. General Jones, what specific policy changes 
has the United States Army made--since the Tillman incident--to 
ensure that families receive accurate, timely information in 
cases where friendly fire is suspected? How are these changes 
different from the Army's policy before the Tillman incident?
    General Jones. The Army has a longstanding published policy 
in place that requires us to provide the Family timely and 
accurate information about the circumstances surrounding a 
casualty incident, to include updates when circumstances are 
revised via supplemental reports based on receipt of new 
information. Army policy requiring units to immediately report 
any suspected friendly fire incident through casualty and other 
reporting channels as well as to initiate both a collateral 
investigation and an accident investigation are also 
longstanding published policies that pre-date the Army's entry 
into current conflicts in Afghanistan and Iraq. Likewise, Army 
regulations both then and now require units to inform the Army 
Combat Readiness Center and the Criminal Investigation Division 
of a suspected friendly fire incident so those agencies can 
review the incident and determine if an Army-level accident 
and/or criminal investigation is warranted. Once the unit's 
investigation(s) has been completed and if the approval 
authority concludes that the incident did involve friendly 
fire, Army policy in place both then and now require that we 
offer the Soldier's primary next of kin an in-person 
presentation of the collateral investigation's findings and a 
redacted copy of the collateral investigation report. If the 
Family desires to obtain other completed reports such as the 
Criminal Investigation Division Report, the Army will assist in 
obtaining these reports for the Family.
    In the aftermath of the Corporal Tillman case, the Army has 
instituted several additional requirements involving casualty 
reporting and investigation procedures to further ensure that 
commanders know of their responsibility to accurately report 
the circumstances surrounding a casualty incident and to 
provide updated reports as soon as new information comes to 
light:
    First, the battalion commander, or his battalion-level 
field grade designee, must verify the accuracy of the casualty 
circumstances and the inflicting force as well as sign the 
report before submitting the initial or supplemental casualty 
report through higher headquarters to the Army's Casualty and 
Mortuary Affairs Operations Center (CMAOC). As before, in those 
cases where the battalion commander identifies the inflicting 
force as ``U.S.,'' ``allied,'' or ``unknown'' on the casualty 
report, CMAOC will direct the casualty notification team to 
inform the Family that their Soldier was killed by possible or 
suspected friendly fire and that the unit has initiated an 
investigation to determine the facts surrounding the death. The 
Family is also informed that they will receive a copy of the 
final report of investigation.
    Second, the Army now requires commanders to investigate all 
hostile deaths under the provisions of Army Regulation 15-6 and 
to report initiation of that investigation through casualty 
reporting channels so the Family can be informed that an 
investigation is underway.
    Third, all Army units or agencies that conduct a death 
investigation must now provide a copy of the completed report 
to CMAOC. CMAOC then compares the results of the unit's 
investigation and any other completed investigation to the 
latest circumstances reported through casualty channels to 
ensure all information sources are consistent and that the 
Family has been provided with up-to-date information concerning 
the circumstances of their loved one's death.
    Finally, the Army's leadership communicates regularly--both 
formally and informally--with commanders in theater to ensure 
they understand that it is both published policy and their 
obligation as commanders to report a suspected friendly fire 
incident through both casualty and operational channels at the 
moment they first suspect it and not wait for completion of the 
investigation to submit updated information concerning the 
circumstances of such incidents.
    Ms. Sanchez. General Jones, who in the United States knew 
that friendly fire was suspected in the death of Corporal 
Tillman, at the time that Corporal Tillman's family buried him? 
If an individual at the Pentagon knew that friendly fire was 
suspected in the death of Corporal Tillman at the time that 
Corporal Tillman was buried and withheld that information from 
the family, should that individual at the Pentagon be subject 
to criminal charges? Should that individual be subject to any 
disciplinary action? If so, what types of disciplinary action 
is that individual subject to?
    General Jones. The Information for Members of Congress 
below, which was provided to all Members of Congress on July 
31, 2007, details specific information responsive to the 
question of who was aware that friendly fire was suspected at 
the time of the memorial service, and details specific answers 
regarding the steps taken by Secretary of the Army Pete Geren 
and disciplinary actions taken by General William Wallace with 
regard to the Tillman case.

                         DEPARTMENT OF THE ARMY

                             WASHINGTON, DC

July 31, 2007

INFORMATION FOR MEMBERS OF CONGRESS

SUBJECT: Army Announces Results of Further Review of Reports 
Related to the Death of Corporal Patrick Tillman

    The U.S. Army announced today steps taken by Secretary of 
the Army Pete Geren, and the results of a review by the 
commanding general of the U.S. Army Training and Doctrine 
Command of the March 26, 2007, DoD Inspector General's report 
into matters related to the 2004 friendly fire death of Army 
Ranger Cpl. Patrick Tillman.
    As a result of his independent review of the evidence 
supporting the DoD Inspector General's report, Gen. William S. 
Wallace, a veteran battlefield senior commander and General 
Court-Martial Convening Authority, took action against six of 
nine Army officers identified in the DoD Inspector General's 
report.
    Gen. Wallace sanctioned Lt. Gen. (Ret.) Philip Kensinger, 
one of the general officers mentioned in the DoD Inspector 
General's conclusion, for lying in follow-on investigations 
conducted seven months after Cpl. Tillman's death. After 
reviewing Gen. Wallace's actions, the Secretary of the Army 
took further action to censure Lt. Gen. (Ret.) Kensinger and to 
refer his case to an Army Grade Determination Review Board.
    It is important to note that, consistent with the DoD 
Inspector General's report, Gen. Wallace found no evidence that 
anyone in the chain of command sought to cover up the fact that 
Cpl. Tillman had died by friendly fire. Rather, Gen. Wallace 
determined that the delay in notifying the Tillman family of 
the on-going friendly fire investigation resulted from a well-
meaning, but misguided intent to wait until all investigations 
were complete.
    ``We made a number of mistakes--in fact, I cannot imagine 
that this situation could have been more poorly handled--but at 
no time did the Army try to cover up the truth or deceive the 
American public about how Cpl. Tillman died,'' Mr. Geren said. 
``Cpl. Tillman was killed on the evening of April 22, 2004, and 
by the very next morning the system was working its way toward 
the truth: that he was killed by friendly fire. Along the way, 
the Army violated its own regulations and policies regarding 
casualty notification and friendly fire investigations, and 
appropriate action has been taken. But in seven investigations 
into this tragedy, not one has found evidence of a conspiracy 
by the Army to fabricate a hero, deceive the public, or mislead 
the Tillman Family about the circumstances of Cpl. Tillman's 
death.''

Background

    On April 22, 2004, in the vicinity of Magarah, Afghanistan, 
U.S. Army Soldiers of the 2nd Platoon, Company A, 2nd 
Battalion, 75th Ranger Regiment were moving through a remote 
canyon when a portion of the convoy was ambushed and engaged in 
a running gun battle with the enemy. Because of difficulties 
caused by an inoperable tactical vehicle, and the mission to 
achieve an established objective by nightfall, the platoon 
ground assault convoy--consisting of 41 Army Rangers, four 
Afghan Military Forces soldiers, and 12 vehicles--split into 
two groups or ``serials.''
    In a 14-minute period of confusion that ensued, the first 
serial of the convoy was not aware of the other's location; 
ultimately the second serial fired on Cpl. Tillman's position.
    Initial unit investigations determined that the Rangers 
misidentified Cpl. Tillman, an Afghan soldier, and one other 
Ranger as enemy. Based on these initial investigations, seven 
Soldiers of the 75th Ranger Regiment received some type of 
disciplinary action, ranging from Article 15s to reprimands, to 
removal from the Ranger Regiment.

Latest Actions

    Exercising independent discretion as a commander to address 
and resolve disciplinary concerns, Gen. Wallace reviewed 
evidence, made findings, and took the following actions 
involving the general officers:

Lt. Gen. (Ret.) Philip Kensinger, then commanding general of 
U.S. Army Special Operations Command: written reprimand; 
written censure; request for Army Grade Determination Review 
Board

    <bullet> LFindings and Actions by Gen. Wallace:

          LLt. Gen. (Ret.) Kensinger made three false 
statements in follow-on investigations.

          LHe failed to properly notify the Tillman family of 
the fratricide investigation.

          LHe failed to notify then-Acting Secretary of the 
Army Les Brownlee of the friendly fire investigation.

          LHe did not initiate a timely Army safety board 
investigation as required by Army regulation.

          LGen. Wallace issued a written reprimand to Lt. Gen. 
(Ret.) Kensinger.

    <bullet> LFindings and Actions by Secretary Geren: On July 
30, 2007, Secretary Geren issued a written censure to Lt. Gen. 
(Ret.) Kensinger that addressed his knowing submission of a 
false report to the Secretary of the Army on a matter of grave 
importance to the Army. The Secretary also cited Lt. Gen 
Kensinger's failure of leadership as the senior officer in the 
administrative chain of command of the Ranger Regiment. The 
Secretary has directed that an Army Grade Determination Review 
Board evaluate the highest grade in which Lt. Gen. (Ret.) 
Kensinger served satisfactorily on active duty for retirement 
purposes.

Lt. Gen. Stanley McChrystal, then Joint Task Force commanding 
general: No Action Warranted. Gen. Wallace determined that as a 
Joint Task Force Commander in combat, Lt. Gen. McChrystal 
reasonably and appropriately presumed the Silver Star award 
packet presented to him for signature was accurate. In 
addition, Gen. Wallace also determined that Lt. Gen. McChrystal 
acted reasonably and quickly when he alerted his higher 
headquarters through use of a ``Personal For'' (P4) message 
about the expectation that the outcome of the ongoing 
investigation would determine Cpl. Tillman died from friendly 
fire.
Brig. Gen. James Nixon, then commander of 75th Ranger Regiment: 
written memorandum of concern. Gen. Wallace found then-Col. 
Nixon's well-intentioned but fundamentally incorrect decision 
to keep information close-hold within his staff about the 
ongoing fratricide investigation deprived him of the advice he 
needed to make an informed decision on casualty notification. 
Gen. Wallace did find that then-Col. Nixon kept his chain of 
command fully informed.
Brig. Gen. (Ret.) Gary Jones, then commander of U.S. Army 
Special Forces Command and one of the Army Regulation 15-6 
investigating officers in the case: written memorandum of 
concern.

    <bullet> LGen. Wallace found Brig. Gen. Jones should have 
interviewed an additional witness about Lt. Gen. Kensinger's 
statement as to when he was informed about the Tillman 
fratricide, in order to complete his review.

    <bullet> LGen. Wallace also found that Brig. Gen. Jones 
incorrectly characterized the basis for Cpl. Tillman's actions 
in his explanation of why Tillman's actions merited the Silver 
Star.

Remaining Officers Identified in DoD IG Report

    Gen. Wallace also reviewed the actions of five other 
officers, all below the rank of a General Officer. Based on his 
independent review of the evidence, Gen. Wallace elected to 
take action on three of these five officers, and took no action 
on the remaining two officers in this group of five. Consistent 
with the Freedom of Information Act, the Privacy Act, and 
longstanding Army policy and procedures, the names of these 
non-senior officials will not be publicly released.

Findings in Regard to the Silver Star

    Gen. Wallace found that each of the three Commanders who 
signed the recommendation for a Silver Star for Cpl. Tillman 
acted reasonably given the information that was available for 
him to consider at the time. Each was aware that it was likely 
that Cpl. Tillman died from friendly fire. Gen. Wallace also 
took into account that at that time, unlike now, there was no 
regulatory prohibition preventing the processing of a 
posthumous valor award while a suspected fratricide 
investigation was on-going. He specifically found that the 
basis for the Silver Star was for Cpl. Tillman's acts of 
gallantry up until the point that he died by friendly fire.
    On March 17, 2007, an Army Senior Decorations Board 
reviewed the posthumous award of the Silver Star to Cpl. 
Tillman. On March 26, 2007, the Army announced that it was 
implementing the Board's recommendations affirming the Silver 
Star but modifying the citation to more accurately reflect the 
circumstances and Cpl. Tillman's actions.

Background and Evidence Considerations

    Gen. Wallace independently reviewed the facts and evidence 
regarding the Army officers named in the DoD Inspector 
General's report. Gen. Wallace was not bound by the conclusions 
or recommendations outlined in the DoD report or limited to the 
evidence it considered.
    The evidence reviewed by Gen. Wallace included sworn 
testimony, interviews, and documentary evidence collected 
during all of the various investigations, and any statements or 
matters submitted by the officers. In addition to the evidence, 
where appropriate Gen. Wallace also considered each officer's 
age, rank, education, military record, intent, motives, 
training, experience, and length of service. He also 
considered, existing pressures, constraints, and resource 
limitations each officer faced while operating on the 
battlefield.
    With regard to all of the officers under his review, Gen. 
Wallace chose the disciplinary or leadership tool he deemed 
best to serve justice, good order, and discipline. In some 
cases that tool was a Memorandum of Concern, which is not 
punishment, but is often used by a commander to coach, teach, 
educate, train and mentor when matters involve mistakes or 
misjudgment.

Army Improvements: 2004 to Present

    Since October 2001, more than 3,640 service men and women 
have made the ultimate sacrifice in Iraq, and more than 400 
have been killed in Afghanistan, all in service to our Nation 
in the war against terrorism. The Army grieves the death of 
every one of these Service Members and shares the grief of 
every bereaved military Family. Timely and accurate Family 
notification is a duty based on core Army values.
    Over the past five years, the Army has incorporated lessons 
learned and new procedures to ensure timely, accurate 
notification of Families as well as to improve casualty-
assistance procedures. These new procedures include:

    <bullet> LRevising Army Regulation 600-8-1, ``Army Casualty 
Program,'' to require commanders of deployed forces to initiate 
an Army Regulation 15-6 investigation into all hostile deaths. 
The policy applies the regulation's thorough investigating 
techniques to initial casualty circumstances to ensure Families 
receive accurate information.

    <bullet> LDirecting a field-grade officer review initial 
casualty reports to verify their accuracy based on all of the 
information known at the time.

    <bullet> LRequiring the Army's Criminal Investigation 
Command and unit commanders to notify the U.S. Army Human 
Resources Command's Casualty and Mortuary Affairs Operations 
Center of on-going death investigations and provide copies of 
investigative reports upon completion. The Center then cross-
references these investigations with the initial casualty 
circumstances to ensure they match.

    <bullet> LIncorporating additional training about casualty 
procedures and dealing correctly with battlefield deaths into 
Army education, such as pre-command courses, career courses and 
officer basic courses.

    <bullet> LEstablishing a new valorous awards policy, 
requiring that prior to taking any action on a posthumous 
valorous award recommendation, the designated approval 
authority must review the completed Army Regulation 15-6 
collateral investigation. The narrative presented in the award 
must not materially conflict with the findings of the 
investigation.

    Ms. Sanchez. General Jones, how does the information that 
friendly fire is suspected in the death of a soldier get from 
theater to the soldier's family? How long does this process 
take?
    General Jones. Army casualty reporting policy requires that 
the commander in theater dispatch the initial casualty report 
to the Army's Casualty and Mortuary Affairs Operations Center 
(CMAOC) within 12 hours of the incident. The battalion 
commander or his battalion-level field grade designee must 
verify the accuracy of the casualty circumstances and the 
inflicting force before submitting the initial casualty report. 
Whenever the battalion commander identifies the inflicting 
force as ``U.S.,'' ``allied,'' or ``unknown'' on the initial 
casualty report, CMAOC will direct the casualty notification 
team to inform the Family that their Soldier was killed by 
possible or suspected friendly fire and that the unit has 
initiated an investigation to determine the facts surrounding 
the death. The Family is also informed that they will receive a 
redacted copy of the final report of investigation and will 
receive an in-person formal presentation of the report if the 
investigation concludes that the incident involved friendly 
fire.
    Upon receipt of the initial casualty report from the unit, 
CMAOC reviews it for completeness and to ensure a field grade 
officer verified the casualty circumstances and the inflicting 
force information contained in the report. CMAOC then passes 
the casualty report to one of the Army's 33 regional Casualty 
Assistance Centers (CAC). The CAC assembles a notification 
team, consisting of a notification officer and a second 
Soldier, preferably a chaplain, to locate and notify all the 
Family members listed on the Soldier's Record of Emergency 
Data. The goal is to notify the Soldier's primary next of kin 
within four hours of the CAC receiving the initial casualty 
report. In most cases, the Army is able to notify all Family 
members within 24 hours of the incident. There are times, 
however, where this may take longer, especially if the Family 
member is not home when the notification team arrives, or if he 
or she has relocated.
    If the initial suspicion of friendly fire does not emerge 
until the subsequent investigation of a hostile death uncovers 
evidence of a possible friendly fire, the commander is then 
required to submit an immediate supplemental casualty report, 
with the same field grade review requirement, to update 
information previously reported concerning the circumstances 
and inflicting force identification. This may occur hours, days 
or weeks after initial notification to the Family based upon 
evidence that surfaces during the investigation. Nevertheless, 
it must be accomplished as soon as the suspicion of friendly 
fire comes to light. Once CMAOC receives and reviews that 
report, CMAOC will coordinate with the CAC to have the Family's 
assigned Casualty Assistance Officer(s) make immediate follow-
on notification of the suspected friendly fire to the Family 
and advise them that they will be offered an in-person formal 
presentation of the report if it concludes that friendly fire 
was involved.
                                ------                                


                   QUESTIONS SUBMITTED BY MR. HINCHEY

    Mr. Hinchey. When was Sgt. Eddie Ryan's family officially 
notified that their son had been wounded by friendly fire?
    Mr. Downs. Sgt. Ryan's family was officially notified of 
the friendly fire incident on 27 July 2005 telephonically by 
their CACO. The CACO had contacted the Marine Corps Awards 
Branch on behalf of the Ryan family that same day to determine 
the status of Sgt. Ryan's Purple Heart. At that time, he 
learned Sgt. Ryan was wounded by friendly fire and that the 
information was imbedded in a supplemental PCR released on 17 
May 2005 that had been unfortunately overlooked. On 4 Aug. 05, 
the CACO delivered the 17 May 2005 supplemental PCR to the 
family. MARADMIN 592/07 (cited above) established specific 
formatting for reporting of any investigation to preclude this 
type of information from being overlooked in the future. The 
MARADMIN also ensures that the Marine Corps will go beyond what 
is currently required by Sec. 1072 of P.L. 102-484 by ensuring 
that the family of any incapacitated Marine will also be 
informed of any investigation into the cause/circumstances of 
injury.
    Mr. Hinchey. How many friendly fire investigations are 
being conducted by the Marine Corps as of July 3, 2007?
    Mr. Downs. The Staff Judge Advocate (SJA), U.S. Marine 
Corps Forces, Central Command (MARCENT) is the records 
custodian for friendly-fire investigations conducted by U.S. 
Marine Corps Forces in the Central Command (CENTCOM) Area of 
Operations. The MARCENT Command Operations Center notifies 
essential personnel, to include the SJA, when a possible 
friendly-fire incident occurs. The force Staff Judge Advocates, 
for example, the Staff Judge Advocate for Multi-National 
Forces--West (MNF-W), notify the MARCENT SJA upon completion of 
the investigation. MNF-W was the only MARCENT force conducting 
friendly-fire investigations on July 3, 2007. As of July 3, 
2007, MNF-W was conducting a total of five (5) friendly-fire 
investigations.
    Mr. Hinchey. How many times, and for what durations of 
time, were each of the other service members on Sgt. Ryan's 
sniper team interviewed about the friendly fire incident on 
April 13, 2005?
    Mr. Downs. After reviewing the investigation and contacting 
the Investigating Officer, there were a total of three snipers 
in addition to Sergeant (then Corporal) Ryan. The chief scout 
sniper was interviewed 2-3 times, in addition to the time he 
spent with the investigating officer providing his written 
statement. The other two members were also interviewed 2-3 
times, both alone and together, in addition to the time each 
spent with the investigating officer providing their respective 
written statements. Of the respective 2-3 formal interviews, 
the investigation officer estimates each lasted at least 30 
minutes but less than an hour. Because both the investigating 
officer and these snipers occupied the same firm base, there 
were also ``snippets'' of conversation between them at various 
times regarding this incident. Although not snipers, the 
investigating officer also interviewed the sniper's platoon 
commander and platoon sergeant with similar frequency and 
duration to document trained and expected tactics, techniques 
and procedures for snipers and adjacent units under these 
circumstances. The investigative report contains 25 witness 
statements or interview summaries.
    Mr. Hinchey. What is the average period of time that passes 
between the determination of a friendly fire incident and the 
notification of the affected family?
    Mr. Downs. To respond, we rely on the findings of the 
Inspector General of the Marine Corps (IGMC) Assessment of 
Casualty Reporting and Notification of 11 Oct. 2007. After a 
Congressional Hearing (27 June 2007) and subsequent briefings 
revealed serious deficiencies in our reporting and notification 
processes, the Commandant directed the IGMC to do a top-to-
bottom assessment of our process. That process revealed 
disconnects in our reporting and tracking systems that do not 
allow us to determine an accurate average time between the 
initiation of a friendly fire investigation and the 
notification of that fact to the affected family. That 
inability is unacceptable. Through the Congressional hearing 
process and the subsequent IGMC assessment, we have identified 
remedies to streamline the casualty reporting and notification 
process, improve timeliness, and rectify accuracy problems. 
Upon conclusion of the IGMC assessment, immediate action was 
initiated in the form of a White Letter (direct communications 
between the Commandant and all Commanding Officers and Officers 
in Charge) and MARADMIN 592/07 (issued 11 October 2007) 
reemphasizing reporting, investigation, and notification 
requirements. This remedial action includes: rigorous and 
documented pre-deployment training on casualty reporting and 
investigation procedures, issuance of monthly supplemental PCRs 
to report on the status of ongoing investigations, issuance of 
a PCR within 24 hours of completion of an investigation noting 
the completion date and findings--all information from these 
PCRs being immediately provided to the families directly by the 
Casualty Assistance Calls Officer (CACO) assigned to support 
that family, and the implementation of an inspection process 
within our mandatory Inspector General Automated Inspection 
Reporting System to ensure compliance with casualty procedures.
    Mr. Hinchey. What is the official Marine Corps policy 
regarding sniper team usage of radio in combat or stakeout 
situations? Are sniper teams expected to have their radios 
open, or live, during these situations, or are they generally 
expected to have their radios on standby?
    Mr. Downs. There is no Marine Corps policy regarding usage 
of radios by sniper teams during missions. While there is no 
service policy, unit Standard Operating Procedures most 
commonly dictate that all units maintain their radios in the 
``on'' position, that is they continuously monitor their 
priority nets. This is done to support rapid transmission of 
information (updates to the common operational picture). 
Generally, small units operating on the battlefield, to include 
sniper teams, only transmit on their radios when necessary/
required. Only in an extremis situation would a small unit 
place their radios in ``standby'' mode (e.g. necessity to 
conserve battery life) due to the fact that in the ``standby'' 
mode a unit's radios are receiving incoming radio 
transmissions.
    Mr. Hinchey. Are sniper teams expected to report their 
specific whereabouts in a stakeout location back to higher 
headquarters over the radio? For example, if a team is directed 
to take up a position at a specific building site, are the 
teams required to let higher headquarters know that they are 
positioned on the roof of that building?
    Mr. Downs. Yes. Snipers, like all small units, are required 
to report their location to their higher headquarters. This is 
done to maintain the common operational picture that is a 
common awareness of where all friendly units are located on the 
battlefield. A common operational picture reduces the risk of 
fratricide and facilitates rapid responses to changing 
conditions on the battlefield. This position reporting is 
almost exclusively via radio.

                                  <all>

</pre></body></html>
